<html>
<title> - THE SWAN CREEK BLACK RIVER CONFEDERATED OJIBWA TRIBES</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
         THE SWAN CREEK BLACK RIVER CONFEDERATED OJIBWA TRIBES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

H.R. 2822, TO REAFFIRM AND CLARIFY THE FEDERAL RELATIONSHIP OF THE SWAN 
 CREEK BLACK RIVER CONFEDERATED OJIBWA TRIBES AS A DISTINCT FEDERALLY 
            RECOGNIZED INDIAN TRIBE, AND FOR OTHER PURPOSES

                               __________

                    OCTOBER 7, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-116

                               __________

           Printed for the use of the Committee on Resources


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources



                      U.S. GOVERNMENT PRINTING OFFICE
 51-984                      WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held October 7, 1998.....................................     1

Statement of Members:
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     1
    Camp, Hon. David, a Representative in Congress from the State 
      of Michigan................................................     9
        Prepared statement of....................................    11
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     5
    Kennedy, Hon. Patrick J., a Representative in Congress from 
      the State of Rhode Island, prepared statement of...........    53
    Kildee, Hon. Dale E., a Representative in Congress from the 
      State of Michigan..........................................     1
        Prepared statement of....................................     3
    Knollenberg, Hon. Joe, a Representative in Congress from the 
      State of Michigan..........................................     6
        Prepared statement of....................................     8
    Miller, Hon. George, a Representative in Congress from the 
      State of California, prepared statement of.................     4

Statement of Witnesses:
    Chamberlain, Kevin, Chief, Saginaw Chippewa Tribe, Mt. 
      Pleasant, Michigan.........................................    17
        Prepared statement of....................................    38
    Gould, Gerald, Chief, Swan Creek Black River Confederated 
      Ojibwa Tribes of Michigan, Saginaw, Michigan...............    19
        Prepared statement of....................................    42
    Gould, Harold, Administrative Subchief, Swan Creek Black 
      River......................................................    35
    Gover, Kevin, Assistant Secretary, Indian Affairs, United 
      States Department of the Interior..........................    14
        Prepared statement of....................................    15
    Jackson, Deborah Davis, Ph.D., prepared statement of.........    48
    McClurken, James Michael, Ethno-Historical Consultant, 
      prepared statement of......................................    45
    Patterson, L. Brooks, County Executive, Oakland County, 
      Michigan...................................................    21
        Prepared statement of....................................    45

Additional material supplied:
    Engler, Hon. John, Governor, State of Michigan, letter to Mr. 
      Knollenberg................................................    55
        Further letter to Mr. Knollenberg........................    69
    H.R. 2822, text of...........................................    56
    Lawson, Michael L., Ph.D., Senior Associate, Morgan, Angel & 
      Associates, Washington, DC, prepared statement of..........    76



HEARING ON H.R. 2822, TO REAFFIRM AND CLARIFY THE FEDERAL RELATIONSHIP 
OF THE SWAN CREEK BLACK RIVER CONFEDERATED OJIBWA TRIBES AS A DISTINCT 
       FEDERALLY RECOGNIZED INDIAN TRIBE, AND FOR OTHER PURPOSES

                              ----------                              


                       WEDNESDAY, OCTOBER 7, 1998

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The Committee met, pursuant to other business, at 1:06 
p.m., in room 1324, Rayburn House Office Building, Hon. Ken 
Calvert [acting chairman of the Committee] presiding.
    Mr. Calvert. [presiding] The Committee will come to order.

  STATEMENT OF HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Today, we are meeting to adopt an oversight 
report regarding the designation of the Escalante Grand 
Staircase National Monument. Immediately following the 
consideration of this report, we will hear testimony on H.R. 
2822, except that we're going to reverse that order--the Swan 
Creek Black River Confederated Ojibwa Tribes of Michigan Act 
authored by Congressman Knollenberg.
    I appreciate the hearing witnesses accommodating our change 
in schedule, as Congressmen Miller and Kildee--who are very 
interested in this legislation--weren't able to come here this 
morning at 11 a.m. So, we're going to proceed with the hearing, 
since our witnesses are here, as a courtesy to them and I look 
forward to hearing from all the witnesses--and, without further 
comment, I will recognize my colleague on my left for his 
opening statement. Thank you.

STATEMENT OF HON. DALE E. KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you, Mr. Chairman, members of the 
Committee. As a senior member of this Committee and as co-
chairman of the Congressional Native American Caucus, there's 
no one who is more strong in his support of sovereignty but 
also unity and today I am stating for the record my strong 
opposition to H.R. 2822, a bill that would grant Federal 
recognition to the Swan Creek Black River Confederated Ojibwa 
group.
    Mr. Chairman, I oppose the scheduling of a hearing on H.R. 
2822 this year because of my strong belief that Congress should 
not interfere with the internal political affairs of sovereign 
tribes. We should urge the Swan Creek members to utilize the 
internal processes of the Saginaw Chippewa Tribe to resolve 
their disputes. Although this Committee approved legislation in 
previous years granting Federal recognition to various tribes, 
H.R. 2822 does not warrant the same treatment by this 
Committee.
    Mr. Chairman, it is my understanding that the Swan Creek 
claimed to be the successors and interests to the Swan Creek 
and Black River Bands of the Chippewa Indians. These bands, 
however, have always been recognized and treated by the Federal 
Government as part of the Saginaw Chippewa Tribe. The Swan 
Creek have not existed as a political entity for more than 140 
years. They ceased to exist as a political entity after the 
1855 Treaty of Detroit. To recognize them now would severely 
undermine the sovereignty of the Saginaw Chippewa Tribe.
    The United States has treated Saginaw Chippewa Tribe as one 
entity through the Treaty of 1864, the Indian Reorganization 
Act--a judgment upon legislation--and continues to treat it as 
one body politic today. Congress should not now, in direct 
contradiction to the historical evidence presented here today, 
split the Saginaw Chippewa Tribe into two entities.
    In 1978, the Department of the Interior through the Bureau 
of Indian Affairs promulgated regulations establishing 
procedures for Federal acknowledgment of Indian tribes. Any 
group of Indians seeking Federal acknowledgment must first meet 
the scope of the regulations found at 25 SFR, part 83. These 
regulations preclude any--and this is a term used in that 
part--any splinter group from gaining Federal acknowledgement 
by separating from the main body of a federally recognized 
tribe.
    In 1993, the Swan Creek made an ineffective attempt at 
administrative recognition. The Swan Creek submitted a letter 
of intent to petition the Bureau of Indian Affairs' Branch of 
Acknowledgment and Research for Federal acknowledgement. In 
1997, the BIA placed the Swan Creek file on inactive status for 
failing to submit a fully documented petition. It is my 
understanding that a fully documented petition includes, among 
other things, documentation that a group has existed 
continuously as a political entity since the first contract 
with non-Indians.
    I strongly believe that the Swan Creek constitute a 
splinter group. They cannot satisfy the mandatory criteria 
necessary for acknowledgment. Nevertheless, I believe that it 
is appropriate for the Swan Creek to pursue the administrative 
route for their recognition.
    Mr. Chairman, many members of the Swan Creek received 
services and per capita payments by virtue of their membership 
in the Saginaw Chippewa Tribe and not by virtue of their Swan 
Creek identity. In reviewing the multitude of programs provided 
to this group--from education to health care to paying house 
payments--it is hard to believe that the Swan Creek received 
disparate treatment in the Saginaw Chippewa Tribe, as they 
claim they do.
    The Saginaw Chippewa Tribe met with the Swan Creek 
representatives to see how the tribe could better meet their 
needs. The Swan Creek, however, claimed that no amount of 
increased services or benefits would accommodate them. This 
only begs the question of what it is the Swan Creek really 
wants.
    It is no secret that the motivation behind H.R. 2822 is 
gaming. H.R. 2822 is a gaming bill. This bill is nothing more 
than a product of investors trying to create an Indian tribe in 
order to open a casino outside of Detroit. I'm appalled at this 
notion of a gaming interest seeking to create a tribe, then 
seeking a Member of Congress to introduce a bill for that 
group, even though this group does not reside in the member's 
district, nor is the proposed gaming site in the member's 
district. If the Swan Creek was serious about becoming a tribe, 
they would have pursued the administrative process as 
vigorously as they have pursued the legislative process.
    I close by saying, once again, the Saginaw Chippewa Tribe 
should be allowed to manage its affairs without intervention 
from Congress, that I will oppose further legislative action on 
this bill. And, I strongly urge my colleagues to do the same. 
But, however, Mr. Chairman, I intend to remain here today so I 
can benefit from the testimony of all the witnesses.
    I yield back the balance of my time.
    [The prepared statement of Mr. Kildee follows:]

Statement of Hon. Dale E. Kildee, a Representative in Congress from the 
                           State of Michigan

INTRODUCTION

    Good Afternoon, Mr. Chairman and members of the Committee. 
As a senior member of this Committee and as Co-Chairman of the 
Congressional Native American Caucus, I am stating today for 
the record my strong opposition to H.R. 2822, a bill that would 
grant Federal recognition to the Swan Creek Black River 
Confederated Ojibwa group (Swan Creek).
    Mr. Chairman, I opposed the scheduling of a hearing on H.R. 
2822 this year because of my strong belief that Congress should 
not interfere with the internal political affairs of sovereign 
tribes. We should urge the Swan Creek members to use the 
internal processes of the Saginaw Chippewa Tribe to resolve 
their disputes. Although this Committee approved legislation in 
previous years granting Federal recognition to various tribes, 
H.R. 2822 does not warrant the same treatment by this 
Committee.

HISTORICAL TREATMENT

    Mr. Chairman, the Swan Creek group claims to be the 
successors in interest to the Swan Creek and Black River Bands 
of the Chippewa Indians. The Federal Government has always 
recognized and treated these bands, however, as part of the 
Saginaw Chippewa Tribe. The Swan Creek has not existed as a 
political entity for more than 140 years. They ceased to exist 
as a political entity after the 1855 Treaty of Detroit. To 
recognize them now would severely undermine the sovereignty of 
the Saginaw Chippewa Tribe.
    The United States has treated the Saginaw Chippewa Tribe as 
one entity--through the Treaty of 1864, the Indian 
Reorganization Act, the judgement fund legislation--and 
continues to treat it as one body politic today. Congress 
should not now, in direct contradiction to the historical 
evidence presented here today, split the Saginaw Chippewa Tribe 
into two entities.

BIA ADMINISTRATIVE PROCESS

    In 1978, the Department of the Interior, through the Bureau 
of Indian Affairs, promulgated regulations establishing 
procedures for Federal acknowledgment of Indian tribes. Any 
group of Indians seeking Federal acknowledgment must first meet 
the scope of the regulations found at 25 C.F.R. part 83. These 
regulations preclude any ``splinter group'' from gaining 
Federal acknowledgment by separating from the main body of a 
federally recognized tribe.
    In 1993, the Swan Creek made an ineffective attempt at 
administrative recognition. The Swan Creek submitted a letter 
of intent to petition the Bureau of Indian Affairs, Branch of 
Acknowledgment and Research, for Federal acknowledgment. In 
1997, the BIA placed the Swan Creek file on inactive status for 
failing to submit a ``fully-documented petition.'' It is my 
understanding that a fully-documented petition includes, among 
other things, documentation that a group has existed 
continuously as a political entity since first contact with 
non-Indians. I strongly believe that the Swan Creek is a 
````splinter group'' and that they cannot satisfy the mandatory 
criteria necessary for acknowledgment. Nevertheless, I believe 
that it is appropriate for the Swan Creek to pursue the 
administrative route for their recognition.

SWAN CREEK RECEIVES TRIBAL SERVICES AND PAYMENTS AS SAGINAW 
CHIPPEWA TRIBAL MEMBERS

    Mr. Chairman, many members of the Swan Creek receive 
services and per capita payments by virtue of their membership 
in the Saginaw Chippewa Tribe, and not by virtue of their Swan 
Creek identity. In reviewing the multitude of programs provided 
to this group, from educational-to health care-to-paying house 
payments, it is hard to believe that the Swan Creek receives 
disparate treatment from the Saginaw Chippewa Tribe as they 
claim they do.
    The Saginaw Chippewa Tribe met with the Swan Creek 
representatives to see how the Tribe could better meet their 
needs. The Swan Creek, however, claims that no amount of 
increased services or benefits would accommodate them. This 
only begs the question of what is it that the Swan Creek really 
want.

GAMING INTERESTS

    It is no secret that the motivation behind H.R. 2822 is 
gaming. H.R. 2822 is a gaming bill. This bill is nothing more 
than a product of investors trying to create an Indian tribe to 
open a casino outside of Detroit, Michigan. I am appalled at 
this notion of gaming interests seeking to create a tribe. Then 
seeking a Member of Congress to introduce a bill for that 
group, even though this group does not reside in the Member's 
district, nor is the proposed gaming site in the Member's 
district. If the Swan Creek was serious about becoming a tribe, 
it would have pursued the administrative process as vigorously 
as they have pursued the legislative process.

CONCLUSION

    I close by saying once again, the Saginaw Chippewa Tribe 
should be allowed to manage its affairs without intervention 
from Congress. And that I will oppose further legislative 
action on this bill. I strongly urge my colleagues to do the 
same. In the meantime, however, I will listen attentively to 
our witnesses who have traveled far to be with us today. Thank 
you.

    Mr. Calvert. I thank the gentleman.
    Mr. Kildee. I'd also like to ask consent to submit a 
testimony for Mr. Miller.
    Mr. Calvert. Without objection, so ordered.
    [The prepared statement of Mr. Miller of California 
follows:]

Statement of Hon. George Miller, a Representative in Congress from the 
                          State of California

    I'd like to thank the tribal members who came here to 
testify as well as thank Assistant Secretary Kevin Gover for 
being here to personally testify on this bill. I think that 
there has been a real positive and noticeable turnabout in 
Indian relations under Assistant Secretary Gover and we all 
appreciate the excellent work he has done with the Tribes this 
Congress. Unfortunately, this Congress has not been what you'd 
call a ``hotbed'' of legislative activity, especially when it 
pertains to Indian affairs. So, we don't have a lot to 
celebrate or even look back upon, but I still have hope that we 
may get a few Indian bills such as Self-Governance or 
Employment Training to the President's desk before we all go 
home.
    As far as this bill goes, I would like to agree that there 
are some pretty substantial questions out there regarding the 
historical and legal issues that the Swan Creek Black River 
Tribe and Congress need to address. Right now, the record that 
we have is pretty thin. I understand that the basic issue is 
whether or not Swan Creek is a separate distinct Indian tribe 
or whether it is really part of the Saginaw Chippewa Tribe. I 
think we all agree that they once were a separate tribe and 
they have the treaties to back them up. It's what happened in 
subsequent years that needs to be addressed and I want to see 
that happen. But I think that the Administration is correct 
that this probably should go through the BAR process which is 
where a comprehensive and accurate historical and cultural 
record really ought to be developed first. If it turns out that 
the Tribe is not a splinter group, then the BAR process should 
work. If it doesn't then that's where we should get involved 
again.

    Mr. Calvert. The gentleman from American Samoa has an 
opening statement?

STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A DELEGATE TO CONGRESS 
                      FROM AMERICAN SAMOA

    Mr. Faleomavaega. Yes, Mr. Chairman, I would like----
    Mr. Calvert. The gentleman is recognized.
    Mr. Faleomavaega. Mr. Chairman, this bill comes before us 
at an unusual time. Not only are we within a week of our 
expected adjournment date, but we are just 2 days from the 
House having considered and rejected a bill to establish a fair 
administrative procedure to consider the recognition of Native 
American Indian tribes.
    As many in this room know, I have worked on that 
legislation for over 6 years and I was very discouraged to see 
it defeated out of fear of perceived future abuse, especially 
on this issue--gaming--is concerned. And, the hypocrisy of this 
whole thing, Mr. Chairman--as I recall in the debate on the 
floor of the House yesterday--was the fact that the procedures 
to provide recognition of Indian tribes had nothing to do with 
gaming whatsoever. The hypocrisy that members representing 
these very States who collect hundreds of millions of dollars--
oh no, horse racing is not gaming, no, lottery is not gaming. 
Then, what is gaming?
    Mr. Chairman, in the past 2 years, I have not supported 
bills for recognition in an effort to force action on the 
legislative remedy. Now, at the end of this Congress, I do not 
believe it is time to return to a course of legislative 
recognition. I recognize Congress's constitutional plenary 
authority over this country's relations with Native American 
Indians. But, I am convinced that an objective, public 
administrative process remains the best approach toward the 
resolution of this issue at this time.
    To that extent, I agree with the administration's prior 
statements. I appreciate the willingness of Assistant Secretary 
Gover to go over with me in crafting legislation to address 
this very important area and hope our relationship will 
continue toward a final resolution in giving proper recognition 
to these tribes that have been waiting--some tribes have been 
waiting for 8 years, one tribe I know particularly in North 
Carolina has been waiting for over 100 years and, given the 
fact that even the Congress officially recognized this Indian 
tribe and the only reason why it was rejected was because 
supposedly limited resources to be given to other federally 
recognized tribes, which to me is absurd.
    Concerning the bill today, Mr. Chairman, I am not familiar 
with the detailed history of the relationship between the Swan 
Creek Indians and the Saginaw Chippewa Indians but I do look 
forward to hearing from the witnesses this afternoon. I thank 
the chairman for the opportunity.
    Mr. Calvert. I thank the gentleman.
    We have a vote on the floor on the rule--on something dear 
to our hearts for this Committee. So we will suspend this 
hearing and come back immediately for the vote and Mr. 
Knollenberg and Mr. Camp are both here to be in the first 
panel. So, hopefully they'll be able to come right back. We'll 
be back here in 15 minutes and reconvene at 1:30.
    [Recess.]
    Mr. Calvert. This hearing will come to order.
    Our first panel, we have the Honorable Joe Knollenberg and 
the Honorable David Camp. So, without any further hesitation, 
we'll recognize our colleague, Joe Knollenberg.

STATEMENT OF HON. JOE KNOLLENBERG, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Knollenberg. Thank you, Mr. Chairman. I appreciate the 
opportunity to come before the Committee. I want to thank you 
for presiding today and I just want to take exception to some 
of Mr. Kildee's comments saying that this is nothing but a 
casino bill. If Mr. Kildee is so opposed to casino gambling, 
I'd recommend he criticize the Saginaw Chippewa Tribe who have 
been operating a casino for years. This bill is about doing 
justice and that, as Mr. Kildee pointed out--correctly, I 
think--has been put off for over 100 years.
    I want to ask unanimous consent to revise and extend my 
remarks and provide an extended commentary.
    Mr. Calvert. Without objection, so ordered.
    Mr. Knollenberg. Thank you, Mr. Chairman.
    The Swan Creek Black River's aboriginal land, ceded to the 
United States by treaty in 1807, are located in my district and 
in southern Michigan. Both county and local officials support 
my effort to help this tribe regain its Federal recognition.
    Since I introduced this bill in November 1997, I have been 
urging action on it. Despite the lateness of this hearing in 
the session, we are determined to move H.R. 2822 expeditiously 
through the legislative process.
    The Swan Creek Black River is recognized by the State of 
Michigan as a tribe and, for centuries, the Swan Creek Black 
River has been a tribe separate and distinct from any other 
tribe. As you will hear in greater detail this afternoon, Swan 
Creek Black River is the political successor in interest to the 
signatories of numerous 18th and 19th century treaties and its 
government-to-government relationship with the United States 
continued well beyond the treaty period.
    Unfortunately, when the tribe submitted its request in 1936 
to reorganize under the Indian Reorganization Act, the 
Department of Interior made a terrible mistake and, in effect, 
illegitimately terminated the Swan Creek Black River's Federal 
recognition.
    It is well settled, however, that administrative action 
cannot terminate an Indian tribe's Federal recognition. This 
Congress has cured administrative mistakes and legislatively 
restored the Federal recognition of many other Michigan tribes, 
tribes such as the Lac Vieux Desert Band of Lake Superior 
Chippewa Indians, the Pokagon Band of Potawatomi Indians, the 
Little Traverse Bay Bands of Odawa Indians and the Little River 
Band of Ottawa Indians.
    As the evidence demonstrates, the fact pattern of the 
Federal relationship with the Swan Creek Black River is almost 
identical to these other Michigan tribes.
    [Chart.]
    As indicated by the chart--and the chart is displayed, I 
believe--the Federal Government often entered into treaties 
with more than one tribe. This joiner, however, was simply for 
administrative ease and did not in any way lessen the integrity 
of any of the tribes' political structures. Yet, in the 1930's, 
when these tribes attempted to reorganize under the Indian 
Reorganization Act, their Federal recognition was unilaterally 
and wrongfully ended by the Department of the Interior.
    Just as Congress legislatively reaffirmed these tribes, so 
too should we reverse the effective termination of this tribe 
by promptly enacting H.R. 2822. Swan Creek Black River's 
mission is to reaffirm its Federal recognition and restore to 
its tribal members some of their aboriginal lands and Federal 
services to which they are entitled because of their status as 
Indians.
    It is neither the intent of Swan Creek Black River nor my 
bill to infringe on the rights of any other federally 
recognized tribe or seek to acquire property that is rightfully 
within another tribe's aboriginal lands or diminish or compete 
with their Federal funding or other revenue sources or compete 
for membership or health and other services. Quite frankly, a 
cause of great frustration to us these past months has been the 
inaccurate characterization of Swan Creek Black River as 
nothing more than a disgruntled splinter group with a mere 
intra-tribal conflict with the Saginaw Band of the Isabella 
Reservation.
    It has been suggested that these two tribes should resolve 
their conflicts between themselves, first before the Swan Creek 
Black River presents its case to Congress. To this end, the 
Swan Creek Black River advised me they had initiated calls to 
the Saginaw Tribe and arranged an attentive one cordial but 
inconclusive meeting with the Saginaw Tribe's leadership. Then, 
the Saginaw Tribe postponed the planned follow-on meeting and 
never returned subsequent phone calls by Swan Creek Black River 
to reconvene.
    I am told that last week the general counsel of Saginaw 
Tribe contacted a representative of the Swan Creek Black River, 
suggesting that a meeting could be held between the leadership 
of the two tribes if the Swan Creek Black River would agree to 
cancel this hearing. Neither the Swan Creek Black River nor I 
believe that tradeoff--that particular tradeoff--is 
constructive nor do I believe that a meeting of the minds 
between these two tribes should be a precondition to 
congressional action to restore Swan Creek Black River's 
Federal recognition.
    I do, however, believe, that a meeting of these tribes' 
minds would smooth the path. And, therefore, I call on my 
colleagues who have taken the greatest interest in this 
matter--Congressman Kildee, Congressman Camp, Congressman 
Barcia, and Congressman Stupak--to join me in hosting a meeting 
between the two tribes to discuss and agree on amendments to 
H.R. 2822 that will resolve outstanding concerns.
    With or without such a meeting, I am committed to fight for 
prompt enactment of H.R. 2822 to reaffirm the relationship 
between the government of the Swan Creek Black River and the 
government of the United States. It is time to begin to correct 
the injustices that the Swan Creek Black River has suffered for 
so long. I urge the members of the Subcommittee to support this 
bill, H.R. 2822, and report it to the House of Representatives 
without further delay.
    And, once again, Mr. Chairman and the members of the 
Committee, I thank you very much for my allowance to testify 
today. I would also like to suggest if I could--I noticed his 
name was omitted from the roster, the agenda today--the county 
executive of the county in which I live, L. Brooks Patterson, 
would also like to make some comments and I would urge if we 
possibly can see fit to allow him to speak his mind during the 
panel 2 session.
    Mr. Calvert. We could add him to the panel, without 
objection. No objection, we will add him to panel 2.
    Mr. Knollenberg. Thank you, Mr. Chairman. I'd be glad to 
answer any questions.
    [The prepared statement of Mr. Knollenberg follows:]

 Statement of Hon. Joe Knollenberg, a Representative in Congress from 
                         the State of Michigan

    Mr. Chairman, I want to thank you for presiding today and 
to thank Chairman Young for scheduling this long-awaited 
hearing on H.R. 2822, the bill I sponsored along with 
Congressman Barcia to reaffirm the Federal relationship with 
the Swan Creek Black River Confederated Ojibwa Tribes of 
Michigan. The Swan Creek Black River's aboriginal lands, ceded 
to the United States by treaty in 1807, are located in my 
district and in southern Michigan. Both county and local 
officials support my effort to help this tribe regain its 
Federal recognition.
    Since I introduced this bill in November of 1997, I have 
been urging action on it. Despite the lateness of this hearing 
in the session, we are determined to move H.R. 2822 
expeditiously through the legislative process.
    The Swan Creek Black River is recognized by the state of 
Michigan as a tribe, and for centuries the Swan Creek Black 
River has been a tribe separate and distinct from any other 
tribe. As you will hear in greater detail this morning, Swan 
Creek Black River is the political successor in interest to the 
signatories of numerous 18th and 19th century treaties, and its 
government-to-government relationship with the United States 
continued well beyond the treaty period. Unfortunately, when 
the tribe submitted its request in 1936 to reorganize under the 
Indian Reorganization Act, the Department of the Interior made 
a terrible mistake and, in effect, illegitimately terminated 
the Swan Creek Black River's Federal recognition.
    It is well settled, however, that administrative action 
cannot terminate an Indian tribe's Federal recognition. This 
Congress has cured administrative mistakes and legislatively 
restored the Federal recognition of many other Michigan tribes, 
such as: (1) the Lac Vieux Desert Band of Lake Superior 
Chippewa Indians; (2) the Pokagon Band of Potawatomi Indians; 
(3) the Little Traverse Bay Bands of Odawa Indians; and (4) the 
Little River Band of Ottawa Indians.
    As the evidence demonstrates, the fact pattern of the 
Federal relationship with the Swan Creek Black River is almost 
identical to these other Michigan tribes. Like the Swan Creek 
Black River, these tribes are the political successors in 
interest to the signatories of treaties with the Federal 
Government, treaties which were signed both independently and 
together with other tribes. As indicated by the chart, the 
Federal Government often entered into treaties with more than 
one tribe. This joinder, however, was simply for administrative 
ease and did not, in any way, lessen the integrity of any of 
the tribes' political structures. Yet, in the 1930s, when these 
tribes attempted to reorganize under the Indian Reorganization 
Act, their Federal recognition was unilaterally and wrongfully 
ended by the Department of the Interior.
    Just as Congress legislatively reaffirmed these tribes, so 
too should we reverse the effective termination of this tribe 
by promptly enacting H.R. 2822. Swan Creek Black River's 
mission is to reaffirm its Federal recognition and restore to 
its tribal members some of the their aboriginal lands and 
Federal services to which they are entitled because of their 
status as Indians. It is neither the intent of Swan Creek Black 
River, nor my bill, to infringe on the rights of any other 
federally recognized tribe, or seek to acquire property that is 
rightfully within another tribe's aboriginal lands, or diminish 
or compete with their Federal funding or other revenue sources, 
or compete for membership, or health and other services. If we 
need to clarify or otherwise amend provisions of my bill to 
accommodate legitimate, documented concerns, we are and have 
been open to and available for those kinds of constructive 
discussions.
    As you will hear in more detail later in this hearing, the 
Swan Creek Black River seek to reaffirm Federal recognition of 
their government-to-government relationship with the United 
States, established in the early 1800s through numerous 
treaties. The Swan Creek Black River's sovereignty must be 
restored and the tribes granted their rightful Federal 
recognition because: (1) they had treaty relations with the 
U.S.; (2) they were denominated as tribes by Acts of Congress; 
(3) they were treated by the U.S. as having collective rights 
in tribal lands and funds; (4) they meet these primary, and all 
other criteria for Federal recognition; and (5) they have never 
relinquished their tribal sovereignty (although the U.S. 
unilaterally and improperly abandoned the Federal 
relationship). For these reasons, the Swan Creek's case for 
Federal recognition is equally or more compelling than the 
other six Michigan tribes which have reclaimed their status as 
distinct tribal governments.
    Quite frankly, a cause of great frustration to us these 
past months has been the inaccurate characterization of Swan 
Creek Black River as nothing more than a disgruntled splinter 
group with a mere intra-tribal conflict with the Saginaw Band 
of the Isabella Reservation.
    It has been suggested that these two tribes should resolve 
their conflicts between themselves first before the Swan Creek 
Black River presents its case to Congress. To this end, the 
Swan Creek Black River advised me that they initiated calls to 
the Saginaw tribe, and arranged and attended one cordial but 
inconclusive meeting with the Saginaw tribe's leadership. Then 
the Saginaw tribe postponed the planned follow on meeting, and 
never returned subsequent phone calls by Swan Creek Black River 
to reconvene.
    I am told that last week the general counsel of the Saginaw 
tribe contacted a representative of the Swan Creek Black River 
suggesting that a meeting could be held between the leadership 
of the two tribes if the Swan Creek Black River would agree to 
cancel this hearing. Neither the Swan Creek Black River nor I 
believe that trade off is constructive. Nor do I believe that a 
meeting of the minds between these two tribes should be a pre-
condition to congressional action to restore Swan Creek Black 
River's Federal recognition. I do, however, believe that a 
meeting of these tribes' minds would smooth the path. 
Therefore, I call on my colleagues who have taken the greatest 
interest in this matter--Congressmen Kildee, Camp, Barcia, and 
Stupak--to join me in hosting a meeting between the two tribes 
to discuss and agree on amendments to H.R. 2822 that will 
resolve outstanding concerns.
    With or without such a meeting, I am committed to fight for 
prompt enactment of H.R. 2822 to reaffirm the relationship 
between the government of the Swan Creek Black River and the 
government of the United States. It is time to begin to correct 
the injustices that the Swan Creek Black River has suffered for 
so long. I urge the members of this Committee to support H.R. 
2822 and report it to the House of Representatives without 
further delay.
    Once again, thank you, Mr. Chairman, and the members of the 
Committee for allowing me to testify today.

    Mr. Calvert. Before we start with Mr. Camp, I would remind 
the audience that any phones or beepers, please put them on 
vibrate or turn them off. We would appreciate your courtesy.
    And with that, Mr. Camp, you're recognized for 5 minutes.

STATEMENT OF HON. DAVID CAMP, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MICHIGAN

    Mr. Camp. Thank you, Mr. Chairman. Thank you for holding 
this hearing and for the opportunity to testify on H.R. 2822.
    I, too, have a written statement that I would ask be made 
part of the record.
    Mr. Calvert. Without objection, so ordered.
    Mr. Camp. I also have a letter from the Governor of the 
State of Michigan, written to all members of the Michigan 
Congressional Delegation, expressing his explicit opposition to 
congressional acknowledgement of additional Indian tribes and 
would ask that that be made part of the record as well.
    Mr. Calvert. Without objection, so ordered.
    [The information referred to may be found at end of 
hearing.]pages 14 to 20
    Mr. Camp. Mr. Chairman, the Saginaw Chippewa Indian Tribe 
has its home in the Fourth Congressional District of Michigan, 
located in the heart of the Fourth Congressional District which 
I represent. I'm here today to testify in opposition to H.R 
2822, a bill that would accord Federal recognition to the Swan 
Creek Black River group.
    Several of the individuals who are advocating Federal 
recognition of the Swan Creek Band of Chippewas are currently 
members of the Saginaw Chippewa Tribe. These individuals have 
several disagreements with the leadership of the Saginaw 
Chippewa Tribe and I fear that Congress is on the verge of 
interfering in the internal matters of a recognized tribe, 
which would clearly violate their sovereign right to determine 
their own membership.
    This is, in my mind, a matter that should not be before the 
Congress. There is already a process in place for recognizing 
tribes. The Bureau of Indian Affairs has been given the 
authority to review the recognition petitions, not the U.S. 
Congress.
    Federal recognition is a very serious matter. Federal 
recognition grants tribes protection, services, and monetary 
benefits of the Federal Government. Acknowledgement also 
entitles tribes to the immunities and privileges available to 
federally recognized tribes by virtue of a government-to-
government relationship with the United States of America as 
well as the responsibilities, powers, limitations, and 
obligations of those tribes.
    In 1978, Congress recognized that the issue of 
reestablishing Federal recognition of tribes was difficult and 
subject to too many political considerations. The Branch of 
Acknowledgement and Recognition, BAR, was established under the 
Bureau of Indian Affairs for the specific purpose of deciding 
these issues on the facts. The specialized staff of the BAR 
exists for the sole purpose of reviewing and analyzing 
petitions for Federal recognition.
    In 1993, the Swan Creek Band of Chippewas filed a petition 
with the BAR and, while that petition remains open, little 
action has been taken to proceed with this congressionally 
established recognition process. I understand that the BAR is 
understaffed and underfunded and that many tribes with valid 
cases must wait years for actions on their petitions. However, 
I am very concerned that in the last 5 years not enough 
information has been provided to move the Swan Creek petition 
forward. Instead, Congress is being asked to play the role of 
the BAR, a task we are unsuited to undertake.
    We have passed legislation recognizing tribes in the past, 
including several in Michigan, but those situations were 
significantly different. Congress should be the last stop in 
seeking Federal recognition. There are over 100 groups 
currently awaiting action by the BAR. To allow the Swan Creek 
to circumvent the entire BAR process would be a grave injustice 
to those groups who are awaiting BAR action. This Committee 
must consider these other groups also when acting on this bill.
    We should encourage groups to follow the guidelines 
established by Congress 20 years ago. A precedent could be set 
which would have this Committee holding dozens of similar 
hearings in the future, as groups see that the BAR process need 
not be followed.
    I want to close by stressing my disappointment with the 
slow pace of the BAR process. On May 20 of this year, this 
Committee marked up and passed H.R. 1154, the Indian Federal 
Recognition Administrative Procedures Act of 1997 and--although 
I had some concerns with certain aspects of that legislation 
which the House failed to pass--I applaud the Committee for 
moving to reform the process and provide a third party to 
review and approve petitions. In light of your work on this 
legislation, I urge you to continue to work to improve the 
process so that groups may have the confidence that their 
requests will be met in a timely and fair manner.
    It is my hope that the Committee will recommend that the 
Swan Creek follow the BAR process and not pass a bill until BAR 
has a chance to conduct a thorough review. I hope the Committee 
will also consider the sovereign rights of the Saginaw Chippewa 
and their rights to determine their own membership. Thank you.
    [The prepared statement of Mr. Camp follows:]

  Statement of Hon. Dave Camp, a Representative in Congress from the 
                           State of Michigan

    I want to thank the Committee on Resources again for the 
opportunity to testify on H.R. 2822.
    My reason for testifying on this bill is because of my deep 
concern for the rights of a federally recognized tribe, the 
Saginaw Chippewa Tribe, and for need to abide by the 
Congressionally established process of tribal recognition. The 
Committee today will hear testimony in support of and in 
opposition to a bill that would accord Federal recognition to 
the Swan Creek Black River band. I am in opposition to H.R. 
2822 because it fails to recognize the rights of the Saginaw 
Chippewa Tribe and circumvents the recognition process put into 
place by Congress itself. I have met with both of the 
interested parties on numerous occasions to listen to their 
arguments. I have come to two conclusions based on these 
meetings.
    First: I am not an expert in 17th and 18th century treaties 
and Native American ethnogenealogy and I would venture to say 
that neither is any other Member of Congress. There are 
however, a group of people who not only have expertise in this 
area but are directed by Congress to use their considerable 
skills in these areas to determine whether a group of Native 
Americans meet the Congressional defined criteria for 
recognition as a federally recognized tribe.
    In 1978, Congress recognized that the issue of re-
establishing Federal recognition of tribes was difficult and 
subject to too many political considerations. The Branch of 
Acknowledgment and Recognition (BAR) was established under the 
Bureau of Indian Affairs (BIA) for the specific purpose of 
deciding these issues on the facts. The specialized staff of 
the BAR exists for the sole purpose of reviewing and analyzing 
petitions for Federal recognition.
    The Federal Acknowledgment Process (FAP) is set forth in 25 
C.F.R. Part 83. Any group that petitions the BAR for 
recognition must, under the FAP, be able to demonstrate that it 
is a distinct social and political entity that existed 
continuously from the period of first sustained contact with 
Euro-Americans until the present day. For Congress to determine 
this, along with the other criteria, would be difficult to say 
the least. Other than the standards Congress set and instructed 
the BAR to enforce, Congress has no discernable criteria by 
which to judge tribal status. We established criteria and 
assigned the BAR to ensure that these criteria are met in order 
for a tribe to be recognized.
    Federal recognition is a most serious matter. Bestowing 
Federal recognition grants recognized tribes with the 
protection, services and monetary benefits of the Federal 
Government. Acknowledgment also entitles tribes to the 
immunities and privileges available to federally recognized 
tribes by virtue of government-to-government relationship with 
the United States as well as the responsibilities, powers, 
limitations and obligations of such tribes.
    The Swan Creek band has presented me with a case for their 
recognition as a separate tribe. I do not believe I possess the 
knowledge to determine whether their statements are factual. 
The BIA's own publication ``What is the Background of the 
Federal Acknowledgment Regulations?'' states the following:

        The BIA cannot take the petitioners' statements on face value, 
        as much as the petitioner themselves may believe in them. This 
        is why petitioners must document their claims, and professional 
        staff employed by the BIA must verify the claims.
    In the case of H.R. 2822, Congress is being asked to play the role 
of the BIA, a task we are unsuited to undertake. Congress should not be 
the first stop in seeking Federal recognition, as it is with the Swan 
Creek. There are over 100 groups who have filed petitions with the BAR 
and are currently awaiting action on those petitions. One of these 
groups is the Swan Creek, who submitted their petition on May 4, 1993. 
What has happened since 1993 that would warrant Congress acting ahead 
of BAR on this matter? Nothing. The Swan Creek have not provided their 
information to the BAR that might prove their case. They have, however, 
provided me with a great deal of information that seems like it should 
belong at the BAR to be researched and verified. To allow the Swan 
Creek to circumvent the entire BAR process would be a grave injustice 
to those groups who have spent years and even decades in some cases 
working with the BAR to meet the criteria. This Committee must consider 
these groups when acting on this bill.
    True, we have, years ago, passed legislation recognizing tribes, 
including several in Michigan, but those situations were significantly 
different. The Swan Creek will argue that their case is similar to 
those cases. One of the three Michigan tribes recognized legislatively 
was the Pokagon Band, who had nearly completed the BAR process at the 
time of legislative recognition. The Little Traverse Bay Band of Odawa 
Indians and the Little River Band of Ottawa Indians pursued the BAR 
process and were recognized because of their long histories of separate 
political organizations. They also had the support of the Tribes with 
which they were previously associated, who endorsed their efforts to 
gain legislative recognition. That situation does not exist with the 
Swan Creek, who face strong opposition from the Saginaw Chippewa Tribe.
    My second conclusion: The Saginaw Chippewa Tribe has rights as a 
sovereign nation that must not be trampled by Congress. Many of the 
individuals who are advocating Federal recognition of the Swan Creek 
are presently members of the Saginaw Chippewa Tribe who have 
differences with the tribal leadership. Under the approach of H.R. 
2822, the ties which have bound these Chippewa Indians would be broken. 
Congress cannot remove a member of a tribe from his tribe. This 
legislation might actually do just that by forcing currently enrolled 
members of the Saginaw Chippewa Tribe to essentially choose between 
competing factions of the Saginaw Chippewa Tribe. I fear that Congress 
is on the verge of interfering in the internal matters of a recognized 
tribe, which would clearly violate their sovereign right to determine 
their own membership. This, in my mind, is a matter that should not be 
under the jurisdiction of Congress.
    I want to close by stating that I am disappointed with the 
effectiveness of the BAR process. On May 20 of this year, this 
Committee marked-up and passed H.R. 1154, the Indian Federal 
Recognition Administrative Procedures Act of 1997. The House recently 
considered this bill just two days ago but failed to approve it. I 
applaud the Committee for moving to speed the process and provide a 
third party to review and approve petitions. In light of your work on 
this legislation, I urge you to continue to work to improve the process 
so that groups may have the confidence that their requests will be met 
in a timely and fair manner, and not seek to avoid the process 
altogether.
    It is my hope that the Committee will recommend that this group 
follow the BAR process and not pass a bill until BAR has a chance to 
conduct a thorough review. I hope that the Committee will also consider 
the sovereign rights of the Saginaw Chippewa and their rights to 
determine their own membership. Thank you.

    Mr. Calvert. I thank the gentleman for his testimony.
    Mr. Kildee, do you have any questions?
    Mr. Kildee. Pardon me.
    Mr. Chairman, I have no questions of the members, both for 
whom I have the greatest respect even though they have 
different points of view on this. But, we have a deep 
friendship and respect and this is what makes the Congress 
work. I appreciate it.
    Mr. Calvert. I thank the gentleman for his remarks.
    Any other member have any questions?
    The gentleman from American Samoa.
    Mr. Faleomavaega. I just want to compliment both gentlemen 
for their fine statements and I appreciate their support for 
what was supposed to be a significant improvement in the 
procedures on how to recognize Native American Tribes but, 
unfortunately, some of our colleagues thought that this was a 
gaming scheme behind the whole proposed legislation and I say, 
Mr. Chairman, that was a very unfortunate turn of events on the 
legislation on the floor yesterday.
    And, I want to compliment Mr. Camp's statement that I've 
been following this issue of tribal recognition since I've been 
here, for almost 10 years now, and, given the fact that 
Assistant Secretary Gover and I have made every earnest effort 
to see that we were not asking for making the process easier 
for the tribes--we're only asking for making the process more 
fair. We've got situations that--I think Assistant Secretary 
Gover will testify to that situation--but it's really 
unfortunate to see that both groups are here before this 
Committee and expecting us to find a resolution to the problems 
that I think it's really inherent to the State of Michigan.
    And, I want to acknowledge--certainly want to thank--
Congressman Knollenberg for his suggestion that the 
congressional members in Michigan and the two tribes get 
together and see if this can be done outside of parameters of 
having a committee to decide whether or not this tribe is a 
tribe. I mean, it's--I just wish we wouldn't have to be forced 
into making these kinds of decisions, which I honestly believe 
ought to be done outside of this Committee.
    But, I look forward to hearing from the witnesses and, Mr. 
Chairman, I thank you.
    Mr. Calvert. I thank the gentleman and, as a courtesy to 
our two colleagues, if you would like to remain and come up to 
the dais with unanimous consent, I'm sure that no one here 
would mind, if you would like to join us for the second panel.
    Mr. Camp. I appreciate that.
    Mr. Knollenberg. Thank you.
    Mr. Calvert. Thank you.
    OK. Panel No. 2: Mr. Kevin Gover, the Assistant Secretary 
of Native American Affairs, the United States Department of 
Interior; Chief Kevin Chamberlain, Saginaw Chippewa Tribe, Mt. 
Pleasant, Michigan; and Chief Gerald Gould, Swan Creek Black 
River Confederated Ojibwa Tribes of Michigan, Saginaw, 
Michigan. And the gentleman, Mr. Brooks Patterson, would also 
please--a county executive of Oakland county, Michigan.
    Mr. Kildee. Mr. Chairman, if I may--while they're taking 
their seats--I always point out whenever I see L. Brooks 
Patterson that L. Brooks Patterson was a student at University 
of Detroit High School when I was teaching there and I will add 
a very, very good student. I won't add the second part--you 
might want to add that--but he was a very, very good student, 
person for whom I have enormous respect. We worked very closely 
together.
    Mr. Patterson. Well, Mr. Chairman, he always adds that it's 
obvious that I didn't teach him political science.
    Mr. Kildee. That's right. That's usually a line I add to 
that----
    Mr. Calvert. Right. The gentleman must have graduated from 
college at a very young age.
    [Laughter.]
    Mr. Calvert. OK. If everyone is present, we welcome this 
panel and would recognize Mr. Kevin Gover first. Before you 
start your opening statement, just as a reminder, we have those 
little lights there. We ask that each of the witnesses keep 
their opening remarks to 5 minutes. If you have extended 
remarks, we'd be more than happy to accept them and make them 
part of the record. Again, a light will come on, we'll give you 
1 minute warning and then the red light.
    So, with that, Mr. Kevin Gover, you are recognized for 5 
minutes.

STATEMENT OF KEVIN GOVER, ASSISTANT SECRETARY, INDIAN AFFAIRS, 
            UNITED STATES DEPARTMENT OF THE INTERIOR

    Mr. Gover. Thank you, Mr. Chairman. We've submitted written 
testimony which we request be made a part of the record.
    Mr. Calvert. Without objection, so ordered.
    Mr. Gover. Mr. Chairman, first, since this may be the last 
time I'll appear before the Committee in this Congress, I want 
to thank the Committee for all of its assistance and work 
during the past year and that we look forward very much to 
working with all of you in 106th Congress.
    Mr. Chairman, our testimony is very simple this morning. We 
oppose this bill for the simple reason that we are unable to 
say with any degree of confidence whatsoever that this is or is 
not a tribe. The group has submitted to us a petition--or more 
accurately--a notice that it intends to petition for Federal 
recognition and did so in 1993. Since that time, there's been 
no further action on the petition and I want to make clear that 
we don't fault the tribe for that. There's been no call for any 
action because it's simply not at the point in the process 
where they're required to submit materials but certainly they 
could if they choose to do so.
    We have no opinion as to exactly what the status of this 
group of Indian people is. What we would prefer very much is to 
be allowed to develop such an opinion, to review a complete 
petition, and to either recognize or not recognize this group 
as a federally recognized tribe.
    We have a number of specific concerns about the bill that--
were this Committee and the Congress to choose to move forward, 
we would certainly want to see those other matters addressed as 
well. But, our primary concern, Mr. Chairman, is that this 
group simply has not yet gone through the process that's been 
established and that we've been administering for some time.
    Let me also say that I'm very sensitive to the criticisms 
of the Branch of Acknowledgement Research (BAR) and that there 
clearly has been a problem over the years that we're not 
proceeding quickly enough on these petitions. We recently had a 
change in leadership in BAR. We've been working with Mr. 
Faleomavaega this year to try to find some common ground and to 
improve upon this process. We are very hopeful that that would 
have moved forward so that we could join the debate further in 
the Senate and perhaps agree on an appropriate way to handle 
what is, perhaps, the most fundamental of questions when it 
comes to our Indian communities. That is, whether or not there 
is a group that is going to be recognized by the United States 
of America and if it will be afforded the many benefits and 
advantages and, frankly, some of the disadvantages that 
accompany being recognized as a Indian tribe by the United 
States.
    That's a summary of my testimony, Mr. Chairman. I'd be 
happy to answer any specific questions you might have.
    [The prepared statement of Mr. Gover may be found at end of 
hearing.]

Statement of Hon. Kevin Gover, Assistant Secretary for Indian Affairs, 
                       Department of the Interior

    Good morning, Mr. Chairman and members of the Committee. My 
name is Kevin Gover, Assistant Secretary for Indian Affairs at 
the Department of the Interior (Department). Thank you for the 
opportunity to testify on H.R. 2822, a bill to ``to reaffirm 
and clarify the Federal relationship of the Swan Creek Black 
River Confederated Ojibwa Tribes as a distinct federally 
recognized Indian tribe, and for other purposes.''
    H.R. 2822 would extend Federal recognition to an 
organization known as the Swan Creek Black River Confederated 
Ojibwa Tribes of Michigan, Inc. (Swan Creek). Swan Creek 
submitted a letter of intent in 1993 to petition under the 
acknowledgment regulations, 25 CFR Part 83. To date, they have 
not submitted any documentation to the Department to support 
their petition. They remain on inactive status on the 
``Register of Letters of Intent to petition.''
    The Department opposes H.R. 2822 for the following reasons:

    There are many unanswered questions concerning the group's 
membership, history, community, and tribal government that 
should be resolved before legislation is considered. For 
instance, the group has not submitted a current membership 
list, which is the one document that is essential in 
identifying the group. Additionally, we do not know whether 
they represent the main body of current descendants of the 
historic Swan Creek Band.
    A good possibility exists that a significant proportion of 
the Swan Creek membership is also part of the Saginaw Chippewa 
Indian Tribe of Michigan (Saginaw Chippewa), a federally 
recognized Indian tribe. If the Swan Creek people are closely 
related to and have participated in the political life of the 
Saginaw Chippewa, Swan Creek may be a splinter group from the 
Saginaw Chippewa Tribe. The Department opposes the splintering 
of recognized tribes. However, because so little information 
has been submitted to the Department about the group and its 
membership, it is not possible to adequately evaluate the 
current political relationship between the group and the 
Saginaw Chippewa Tribe. We note that the Saginaw Chippewa Tribe 
has expressed strong opposition to the Swan Creek petition on 
the grounds that it is a splinter group and that the Saginaw 
Chippewa Tribe is the exclusive successor in interest to the 
Saginaw, Swan Creek and Black River Bands of Chippewa Indians.
    Historically, the Swan Creek Band has been associated with 
the Saginaw Chippewa Band since the early 19th century. The two 
bands co-signed a treaty in 1855. This treaty and a subsequent 
1864 treaty established a reservation for these bands near 
modern-day Mount Pleasant, Michigan. The historical record is 
clear that while some members of the Swan Creek Band refused to 
relocate to the Isabella Reservation as contemplated by the 
treaties, others did so. Some Saginaw Chippewa Band members 
also did not relocate to the reservation. We do not have clear 
evidence that a separate Swan Creek Band remained after treaty 
times, or that those who did not choose to move to the 
reservation formed an independent tribe.
    No information has been provided to the Department to 
substantiate the claim that the Swan Creek have maintained a 
separate political existence from the Saginaw Chippewa since 
the organization of a tribal government under the Indian 
Reorganization Act (IRA) in 1937, or that Swan Creek had 
previously maintained a separate political existence between 
1855 and 1937.
    Because of the complex history of enrollment of the Saginaw 
Chippewa Tribe, and the lack of a membership list for the Swan 
Creek organization, it is impossible to develop a clear picture 
of the group and it's relationship to the recognized Saginaw 
Chippewa Tribe. However, some conclusions can be drawn which 
illustrate that the circumstances of this case merit further 
study before any legislation is enacted.
    The Saginaw Chippewa Tribe as organized in 1937 under the 
IRA included all of the residents of the reservation, including 
descendants of the Swan Creek Band. However, it excluded from 
membership a large number of the descendants from the Saginaw 
Chippewa and Swan Creek Bands who had not relocated, as well as 
others who had migrated from the reservation. This exclusion 
was the subject of protests for some years. This circumstance 
changed in 1986, when the Saginaw Chippewa Tribe modified its 
constitution and opened its enrollment for 18 months to 
individuals who could demonstrate Swan Creek or Saginaw 
Chippewa ancestry and one-fourth or more degree Indian blood. 
This change was made to allow many descendants of these bands 
who had not been eligible for membership under the 1937 
constitution the opportunity to enroll. The enrollment change 
resulted from a compromise between the tribe and unenrolled 
off-reservation descendants over whether the latter were 
entitled to share in funds awarded in Docket 59 and 13-E before 
the Indian Claims Commission, and 13-F before the United States 
Court of Claims. The compromise was incorporated in Public Law 
99-346, the ``Saginaw Chippewa Indian Tribe of Michigan 
Distribution of Judgment Funds Act'' of 1986.
    Approximately 1,900 people enrolled within the 18-months, 
tripling the membership of the Saginaw Chippewa Tribe from 
about 900 to 2,800. Thus, much of the off-reservation Swan 
Creek Band descendants are likely to have become members of the 
Saginaw Chippewa Tribe in 1986. Because the expansion of the 
enrollment included so many non-residents, it is likely that 
there is a substantial overlap between the Swan Creek 
organization's membership and that of the Saginaw Chippewa 
Tribe.
    We offer the following additional comments on H.R. 2822:

    Section 4 (b)(2) describes the service area of the tribe. 
It concludes by providing that Federal services came provided 
to members outside the named service area unless prohibited by 
law or regulation. At the same time, the preceding paragraph, 
Section 4 (B)(1), authorizes the provision of services and 
benefits without regard to the existence of a reservation or 
the location of the residence of any member on or near a 
reservation. It is not clear what function, if any, it serves 
to define a service area and at the same time authorize the 
provision of services and benefits without regard to residence. 
The provision of services to Indian tribal members generally is 
limited to those residing on or near a reservation or within a 
defined area.
    Section 4 (b) would establish a very large, twelve county 
service area which includes highly populated counties and the 
city of Detroit. Given the size of this area, without an 
analysis of the tribe's population in these counties and 
present access to services from other sources, it is difficult 
to reach definite conclusions. However, we have concerns about 
the manageability and appropriateness of such a large area from 
the perspective of providing social services. We are concerned 
about whether it would be feasible for the tribe to operate 
Federal and Bureau programs in twelve counties. The designation 
of service areas for programs is usually accomplished 
administratively, with an appropriate analysis of needs, 
funding and staffing.
    The language in Section 6, Tribal Lands, could be read to 
limit the Secretary's discretion in accepting title to lands in 
trust for the tribe. We suggest that this section read that 
``The Secretary may accept land in the tribe's service area 
specified in this Act pursuant to his authority under the Act 
of June 18, 1934 (25 U.S.C. 461 et seq. Commonly referred to as 
the `Indian Reorganization Act').''
    For purposes of gaming, Section 6 places no limitations on 
the number of parcels that the tribe can acquire, and does not 
limit the amount of time that the tribe can acquire land, that 
would qualify under the exceptions in the Indian Gaming 
Regulatory Act, 25 U.S.C. 2719(b)(1)(B)(iii). From the 
Department's experience and from actions the Department has 
taken with other tribes, the bill should establish reasonable 
limits on the amount of land that would qualify under the 
exceptions and the period of time during which it could be 
acquired.
    Sections 7 and 8 do not clearly designate either a 
membership list/roll or a constitution or bylaws that would 
articulate the criteria for membership. Section 8 refers only 
to ``the governing documents in effect on the date of enactment 
of this Act.'' The Act should designate a specific governing 
document or documents, identified by their date of adoption by 
the group. Ideally, it should also designate an existing roll 
as the base or initial roll, and specify the criteria for 
adding members either by describing them in the legislation or 
by identifying a specific governing document. We have not seen 
the governing document and thus cannot comment on it. There is 
presently no way to clearly determine who would be recognized 
as the Swan Creek Tribe and no legislative guidance as to what 
the criteria for membership should be.
    Section 7 stipulates that ``[n]ot later than 18 months 
after the date of the enactment of this act, the Tribe shall 
submit to the Secretary membership rolls consisting of all 
individuals eligible for membership in the Tribe.'' The phrase 
``all individuals eligible for membership'' should be omitted, 
since it may create unintended difficulties. Commonly, tribal 
rolls do not include all eligible persons, since individuals 
eligible to enroll in more than one tribe may choose to enroll 
elsewhere, e.g., the Saginaw Chippewa Tribe. The roll should be 
a complete list of all of the enrolled members of the tribe. We 
would also note that while we're aware of a couple of statutes 
which require publication of the roll in the Federal Register 
we believe such publication is an unnecessary invasion of 
privacy of the members.
    Section 8 stipulates that ``the governing body of the Tribe 
shall be the governing body in place on the date of the 
enactment of this Act, or any new governing body selected under 
the election procedures specified in the interim governing 
documents of the Tribe.'' Without a clear designation by 
Congress of the governing documents, there could arise problems 
determining how such an election would proceed.
    Section 8 of the bill requires the Secretary to call and 
conduct an election in accordance with the Indian 
Reorganization Act (IRA) to ratify the Tribe's constitution. Is 
this to imply that the Tribe has committed itself to organize 
under the IRA? Section 8 also calls for the Secretary to 
conduct the initial election of tribal of finials after 
adoption of this constitution. The election of officers should 
be the responsibility of the Tribe and not the Secretary.
    The Department has strongly opposed dividing recognized 
tribes. There are presently a substantial number of instances 
around the country where parts of recognized tribes are seeking 
or have recently sought to separate themselves from the main 
body of the tribe, usually as the result of intra-tribal 
disputes. These conflicts are often the result of historical 
circumstances under which separate bands or tribes were placed 
on the same reservation and combined into a single tribe. While 
these groups, as here, may have some separate history, we do 
not believe it is an adequate or appropriate solution to tribal 
disputes to now divide the tribes. Resolution should be sought 
within the constitutional processes of the tribe. We believe 
that legislation here would encourage other groups to seek a 
similar solution, which we do not believe is appropriate except 
under very special circumstances such as that at Lac Vieux 
Desert.
    If, however, the Swan Creek is not a splinter group and has 
historically remained a separate, politically autonomous Band 
since treaty times, then the most appropriate route is for them 
to be evaluated under the acknowledgment process.
    This concludes my prepared statement. I will be happy to 
answer any questions the Committee may have.

    Mr. Calvert. I thank the gentleman.
    Chief Chamberlain, you're recognized for 5 minutes.

STATEMENT OF KEVIN CHAMBERLAIN, CHIEF, SAGINAW CHIPPEWA TRIBE, 
                     MT. PLEASANT, MICHIGAN

    Mr. Chamberlain. Good morning, Mr. Chairman. My name is 
Kevin Chamberlain, Chief of the Saginaw Chippewa Indian Tribe 
of Michigan. I'd like to thank you for the opportunity to 
appear before this distinguished body to voice our tribe's 
opposition to H.R. 2822.
    My testimony will consist of brief remarks on why the 
Committee should oppose H.R. 2822. I respectfully request that 
my full written testimony, including our historical analysis, 
be entered into the record.
    Mr. Calvert. Without objection, so ordered.
    Mr. Chamberlain. Thank you.
    The Saginaw Chippewa Tribe opposes H.R. 2822. Any action on 
this bill is of utmost concern to the tribe because its effect 
would be to separate the federally recognized Saginaw Chippewa 
Tribe into two separate tribes and it would allow a splinter 
group to claim treaty-preserved rights, political jurisdiction, 
and sovereignty currently held by the Saginaw Chippewa Tribe. 
Our position is staunchly set upon our desire to preserve our 
tribe's heritage and sovereign status and to protect tribal 
sovereignty of all Indian nations by preventing political 
factions and splinter groups from being able to secede from 
their tribes and create sovereign nations unto themselves.
    This claim has no merit; it is an attempt by businessmen to 
buy a tribe and push a bill through Congress to further their 
goal of opening a casino.
    The membership issues--the Saginaw Chippewa Tribe not only 
opposes this bill's content but also opposes the holding of 
this hearing today. This bill deals directly with an intra-
tribal membership matter. The United States courts have 
consistently held that one of the Indian tribe's most basic 
powers is the authority to determine the questions of its own 
membership. There should be no congressional intervention on a 
matter so fundamental to a sovereign nation's existence. The 
sovereign nation of the Saginaw Chippewa Tribe should handle 
this membership issue.
    The Swan Creek group, the party pushing this bill, claims 
that they are a successor in the interest of the Swan Creek and 
Black River Bands of Chippewa Indians. Since the 1855 Treaty of 
Detroit, the Swan Creek and Black River Bands have been 
considered part of the Saginaw Chippewa Tribe. Before then, 
they were considered a part of the Missisauga Chippewa, the 
name used for the large group of southeastern Michigan bands 
before and during the treaty era.
    The Swan Creek group, however, claims that they are a 
separate entity deserving of sovereign nation status. This is 
absolutely untrue. Many of the Swan Creek group's participants 
are currently enrolled members of the Saginaw Chippewa Tribe, 
including Mr. Gerald Gould, the Swan Creek's organizer. They 
wish to split from the tribe, obviously.
    Individuals who are members and beneficiaries of one Indian 
nation should not be able simply secede from the Nation and 
create their own nation complete with the rights and privileges 
of all tribes whether because of political differences, 
personal choices to live away from the reservation, or for any 
other reason. The existing sovereign nation to which the 
individuals belong should resolve membership issues internally. 
Tribal politics is not a matter for Congress; it is a matter 
for members of the Saginaw Chippewa Tribe and its elected 
leaders.
    For the record, the Saginaw Chippewa's Tribal Council 
serves all of its members with health, education, vocational, 
housing and other programs without distinguishing bands they 
may descend. The tribe provides an at-large program which 
specifically serves those living off the reservation.
    Annually, the tribe spends approximately $970,000 on at-
large programs, which include but are not limited to health 
services, medical services--including transportation to medical 
appointments--living expense needs, food costs--house payments, 
rent, land tax payments, utilities--burial grants, educational 
seminars, and family services. Further, the tribe spends 
roughly $550,000 per year on cultural enrichment programs for 
the at-large residents and $468,000 on medical coverage.
    The programs are freely accessible to all at-large persons. 
Over 1,290 at-large persons live within 2 hours of the 
reservation and take full advantage of these programs. If the 
Swan Creek group is stating that they get disparate treatment 
for not living on the reservation, this is absolutely not the 
case. They are free to take advantage of all programs. It is 
not the tribe's fault if persons live far away from the 
reservation. It can only provide the services and programs to 
the best of its ability. The at-large programs funded and 
administered by the tribe generously provide for a myriad of 
needs for the tribe's at-large membership.
    Also, there is a seat guaranteed on the Council for a 
representative of the tribe in the at-large district, so that 
such individuals that comprise this district are fully 
represented and have a voice in the governing body.
    The Saginaw Chippewa Tribal Council has also met many times 
with representatives of the Swan Creek group to better 
understand and address its concerns. In most recent meetings 
held earlier this year, the Swan Creek group informed the 
tribal leaders and myself that no political accommodations or 
additional benefits would appease them; they simply want their 
own tribe.
    H.R. 2822 obviously circumvents the administrative process. 
Since Congress has decided to become involved in the intra-
tribal issue, the Saginaw Chippewa Tribe wants to voice its 
opinion that this bill is nothing more than an attempt to 
politically circumvent the appropriate process for becoming a 
fairly recognized tribe.
    In closing, the Saginaw Chippewa Tribe would like to 
reiterate its opposition to holding this hearing. The tribe 
firmly believes that this is a tribal membership issue in which 
Congress should play no role. Further, the Saginaw Chippewa 
Tribe believes that since the Swan Creek group would not be 
able to meet the administrative criteria, it certainly should 
not gain recognition from Congress based upon 5 minutes of 
testimony. Federal recognition of sovereign nations should be 
granted only after careful research and deliberate review. If 
Congress takes any action on this bill, it should only be to 
the extent of directing the Swan Creek group back to the line 
at the BIA.
    For these reasons, the Saginaw Chippewa Tribe respectfully 
requests that this Committee vote against H.R. 2822. I have 
attached our historical analysis and relevant documentation as 
part of my testimony. I'd like to thank you again for my 
opportunity to testify and I also welcome questions from the 
Committee as would our tribe's ethno-historian, Dr. James 
McClurken. Thank you.
    [The prepared statement of Mr. Chamberlain may be found at 
end of hearing.]
    Mr. Calvert. I thank the gentleman.
    Next, Chief Gould is recognized for 5 minutes.

   STATEMENT OF GERALD GOULD, CHIEF, SWAN CREEK BLACK RIVER 
   CONFEDERATED OJIBWA TRIBES OF MICHIGAN, SAGINAW, MICHIGAN

    Mr. Gerald Gould. Thank you. Good afternoon, Mr. Chairman, 
members, and guests. My name is Gerry Son-non-quet Gould and I 
am Chief of the Swan Creek Black River Ojibwa Tribe.
    I would first like to thank Representatives Knollenberg and 
Barcia for sponsoring H.R. 2822 and recognizing issues facing 
my people today. This is an historic moment in our tribe's 
history. I am honored to address you on behalf of our tribe, 
many of whom have traveled all night by bus in order to witness 
this historic occasion. We come to ask that Congress enact 
promptly H.R. 2822 to reaffirm the trust relationship promised 
to our ancestors over 190 years ago.
    When I was a young boy, my mother shared with me, as her 
mother shared with her, and as my great-grandmother shared with 
my grandmother, the rich traditions of our people. My great-
grandmother was born in 1848 and lived in the areas beyond the 
white settlements. The story my mother told me was of a land of 
abundance, and a time of health and simple prosperity in 
southern Michigan. My people were trappers, fishermen, hunters, 
and farmers. They were communities of grandfathers and 
grandmothers, fathers and mothers, sons and daughters, elders 
and infants. It was a time before the reservations when our 
people lived in harmony with their environment, with nature, 
and with each other. This was our proud heritage before the 
settlers came.
    As my mother explained to me, and her mother to her, the 
non-Indians promised that if we would sign the Treaty of 
Detroit of 1807, the United States would take only a small 
portion of our lands, leaving us the rest upon which to hunt, 
fish, and make our living. We signed with the belief and hope 
that our people and the non-Indians would dwell together in 
peace. As white settlements grew, we were forced to move 
numerous times during that period.
    We have awaited this moment with great anticipation and 
also with some regret, for there is much to be said in the yet 
precious few moments that we have together. This afternoon I 
would like to describe how, as a result of Federal Government 
action--which violated the trust relationship--the BIA refuses 
to acknowledge our tribe. As a result, our people are 
disenfranchised by the very governmental agency which is 
obligated to act in our trust.
    We have signed 15 treaties with the United States, 
including one where we are the sole tribal signatory. Despite 
our extensive treaty relationship with the United States, 
Federal actions and policies have resulted in the effective 
loss of our Federal recognition.
    First, the United States artificially combined us with 
other tribes on the same reservation, solely for its 
administrative convenience pursuant to the Treaty of 1855.
    Second, in 1936, the BIA compounded this error by 
rejecting: one, the Swan Creek Black River's request to 
organize as a separate IRA tribe; and two, the draft 
constitution whose preamble listed the Swan Creek Black River 
and the Saginaw Bands as separate tribes. Instead, the BIA 
organized an IRA tribe on the Isabella Reservation, decreeing 
that only members living on the reservation were eligible for 
membership. At that time, the individuals residing there were 
Odawa, Potawatomi and Ojibwa--mostly Ojibwa of the Saginaw 
Chippewa Tribe. In contrast, the overwhelming majority of the 
Swan Creek Black River lived off the reservation.
    To complicate matters, in 1939 the Department of the 
Interior determined to withdraw funding gradually and prohibit 
any future tribal organization under the IRA. By ignoring the 
Swan Creek Black River's separate tribal existence, the United 
States breached its trust obligations to our tribal members. 
Notwithstanding the Federal Government's unilateral action--
which was legally and morally wrong--the Swan Creek Black River 
people continued to function as a tribe. Indeed, we remain a 
tribe, since only the Congress can terminate a tribe and it has 
never taken this action.
    [Chart.]
    This chart that we have brought with us depicts how the 
United States, through treaties, combined tribes in Michigan 
together. In virtually every case, the United States has 
untangled these artificial groupings, reaffirming the 
individuality, sovereignty of each previously combined tribe.
    We appeal to you today to remedy this historic injustice. 
The Swan Creek Black River has never surrendered or 
relinquished our sovereignty. We have undertaken extensive 
historical, anthropological, and genealogical research, all of 
which supports our position.
    We are submitting this box of documents as part of this 
hearing's official record.
    [The information referred to may be found at end of 
hearing.]
    Mr. Gerald Gould. This research proves that we have 
maintained ourselves as a distinct tribe with distinct kinship 
relationships, distinct annuity roles, distinct genealogy, 
distinct culture, and a distinct geographic area. In addition 
to the substantial documentation we have submitted for the 
record, we are accompanied by our experts to answer any 
questions you may pose.
    We do not seek to harm any other tribe; we simply seek to 
be treated like the other sovereign Michigan tribes whose 
Federal recognition, in recent years, has been reaffirmed by 
Acts of Congress.
    We sincerely hope that you will support our effort toward 
the restoration of our trust relationship with you. In the 
Civil War, Swan Creek Black River tribal members fought and 
died for the Union to emancipate other subjugated peoples. The 
outcome of that great conflict brought new meaning to the 
phrase ``we, the people.'' Thus, the concept ``we, the people'' 
holds an even special meaning for us. At this time, ``we, the 
Swan Creek Black River people'' request the Congress to restore 
these same rights possessed by other sovereign Indian nations.
    Thank you. We also have brought Dr. Michael Lawson, our 
expert on the BIA acknowledgement process, to address the 
Committee if you would like. Thank you.
    [The prepared statement of Mr. Gerald Gould may be found at 
end of hearing.]
    Mr. Calvert. I thank the gentleman.
    Next, Mr. Patterson, would you like to have an opening 
statement?

  STATEMENT OF L. BROOKS PATTERSON, COUNTY EXECUTIVE, OAKLAND 
                        COUNTY, MICHIGAN

    Mr. Patterson. Good afternoon, Mr. Chairman and ladies and 
gentlemen. My name is Brooks Patterson and I'm the elected 
county executive from Oakland county, Michigan.
    Permit me to set the stage for my brief remarks by telling 
you a little bit about the 910 square miles that we call 
Oakland. It's a naturally beautiful county with rolling hills 
and 450 lakes. We are the headwaters for five separate rivers 
that wind their way through the county, some ending up in 
neighboring Lake St. Clair, others pouring eventually into the 
Detroit River. By our very name you can imagine the sturdy oak 
trees that crowd the landscape.
    Back in the 17th and 18th centuries, Indian tribes--
specifically the Swan Creek Black River tribe--roamed this 
beautiful territory, fishing its streams and hunting its thick 
forests.
    Much has changed since those early days in Oakland county. 
Now nearly 1.2 million residents enjoy a unique and rich 
quality of life in Oakland county. We have 40,400 businesses 
thriving there. We are headquarters for many Fortune 500 
companies, not least among them Chrysler Corporation, K-Mart 
and Meritor.
    Oakland was beautiful and rugged in the 17th and 18th 
centuries and it combines an urban and rural beauty today. To 
preserve much of what the Swan Creek Black River tribe enjoyed, 
we have set aside in our county over 87,000 acres of public 
park land. For purposes of identifying my county still further 
for members of the Committee, we are also home to some of your 
colleagues--Spence Abraham lives in Auburn Hills, Carl Levin in 
Southfield, Sandy Levin in Royal Oak, Representative Joe 
Knollenberg, in the heart of the territory claimed by this 
tribe, in Bloomfield township. Those are the residents.
    As Oakland county executive, among my many 
responsibilities, I am broadly charged as the steward of 
Oakland county's vast resources. To that extent, I feel a real 
connection with those stewards similarly charged 200 years ago. 
Out of deep sense of respect and duty to the ancestors of Chief 
Gerald Gould--who sits to my right--I am here to acknowledge 
the past and rectify a 2-century-old miscarriage.
    My testimony today is small repayment for what the Swan 
Creek Black River Indians lost. What they seek today is 
recognition of a historical fact: Oakland county was their 
aboriginal land and, through the inevitable passage of time and 
events, they have been disenfranchised.
    Their case for recognition is replete with compelling 
evidence of the tribe's existence and territorial claims 
contained in that box. Not least among the evidence are signed 
treaties with the very Federal Government before which I appear 
this afternoon. Some experts familiar with the Bureau of Indian 
Affairs and the whole recognition process have stated that the 
Swan Creek Black River has presented as compelling a documented 
case as they have ever examined.
    I fear some oppose the rightful restoration of the tribe's 
identity and heritage this afternoon for one simple albeit 
selfish reason: what will the tribe do with its new found 
recognition? Will they eventually open a casino? Maybe. Will 
they build clinics and schools for their people? Probably. Will 
they bask in the pride that their heritage has been restored, 
their historical role has been recognized, and the long 
nightmare in search of their identity and self-esteem is 
finally over? Absolutely.
    What we are engaged in here this afternoon rises far above 
attempting to influence or manipulate a congressional committee 
in hopes of protecting one city or one tribe's avaricious 
gaming monopoly. What we are engaged in here is a far more 
noble cause; it truly touches upon dignity, self-esteem, 
morality and justice.
    In conclusion, let me respectfully suggest that the 
question before this Committee is not what the tribe may or may 
not do when granted Federal recognition. The question is, have 
they proven their case by clear and convincing evidence.
    And, as to a comment made by Chief Chamberlain, I can 
assure you, sir, that Oakland county is not interested in 
buying a tribe. As its elected representative, I am interested 
in them fighting against the maxim that justice delayed is 
justice denied. Thank you.
    [The prepared statement of Mr. Patterson may be found at 
end of hearing.]
    [Applause.]
    Mr. Calvert. I thank the gentleman.
    Mr. Kildee, you're recognized for questions.
    Mr. Kildee. Thank you very much, Mr. Chairman.
    I have a question first of all for Chief Chamberlain. From 
what I've heard today, there seems to be some confusion about 
the circumstances surrounding the reorganization of the Saginaw 
Chippewa Tribe under the Indian Reorganization Act. Could you 
explain to this Committee exactly what occurred and the impact 
it had?
    Mr. Chamberlain. In 19--under our--when our constitution 
was formed?
    Mr. Kildee. The Indian Reorganization Act.
    Mr. Chamberlain. For our tribe specifically?
    Mr. Kildee. Yes, right.
    Mr. Chamberlain. Well, again, the group of the Swan Creek 
Black River and those living within the area of Isabella 
Reservation, which were comprised of both the Ojibwa, Odawa and 
the Potawatomi--our whole existence is based on the compilation 
of those people. The same treaty areas that we're talking about 
today and that have been discussed by them are the same exact 
treaties we're formed under. The same ceded land territories. 
How are you going to split that?
    You'd have to split that. When we were organized in 1936--
when IGRA came about and our tribe was formed and we formed our 
first constitution--it was based on everything that they're 
claiming now, that this particular group is claiming. And, I 
guess my question is--and kind of a question back to just 
anybody in the room--how can they split off from everything 
we're based on? Everything we're based on. I mean, that's what 
the Saginaw Chippewa Tribe--and I'm sorry but the majority of 
the treaties were also signed by our group, too, and only one 
or two were solely done by the Swan Creek Black River.
    I sit before you as a Swan Creek Black River person, 
myself. I don't know if that answers your question or not, 
but----
    Mr. Kildee. It does. Could you also--there seems to be some 
confusion about article VI of the 1855 Treaty. Could you give 
some explanation of its impact?
    Mr. Chamberlain. I would like to defer, if I could, those 
questions to our ethno-historian.
    Mr. Kildee. Sure.
    Mr. Gerald Gould. Mr. Chairman? Could I----
    Mr. Kildee. Chief Gould, I'm still talking to----
    Mr. Calvert. The gentleman, Mr. Kildee, controls the time 
at the present moment.
    Mr. Kildee. Could I have counsel come forward?
    Mr. Calvert. Will the gentleman recognize himself at the 
microphone, please?
    Dr. McClurken. Thank you for calling me, Congressman.
    Mr. Calvert. Please recognize yourself for the record.
    Dr. McClurken. My name is James Michael McClurken and I'm 
an ethno-historical consultant for the tribe.
    Mr. Faleomavaega. Mr. Chairman, may I suggest that the 
gentleman can sit on the dais there in the bottom? It would 
probably be easier----
    Mr. Calvert. I would say the gentleman--he can pull up a 
chair or----
    Mr. Kildee. I will pull up a chair, Mr. Chairman.
    Mr. Calvert. If you could please spell your name for the 
Clerk?
    Dr. McClurken. M-C-C-L-U-R-K-E-N. Sir, the dissolution 
language in the 1855 Treaty has no implemental meaning for the 
Saginaw Swan Creek or Black River Chippewas at all. That 
language was created in a treaty that was negotiated 2 days 
earlier with the Ottawas and Chippewas on the west side of the 
state.
    In 1836, Henry Schoolcraft and Lewis Cass invented a tribe 
called the Ottawa and Chippewa Nation of Michigan. That tribe 
was created to compel the Ottawas--who had determined not to 
sell their land in Michigan to the United States--to sell. The 
Chippewas who were also parties to that treaty were determined 
to sell the land. And, the Chippewas who were part of the 
delegation were also the relatives of the Indian agent at the 
time. To force the Ottawas to sell, he told them that the 
Chippewas were willing to sell and if the Ottawas didn't sign 
the Chippewas would get all the benefits from the sale.
    The Ottawas were angry about that for 20 years. They lost 
all of their land, they lost their annuities, they lost their 
reservation and, when they made a treaty with the United States 
in 1855, they insisted that the fictitious tribe called the 
Ottawas and Chippewas of Michigan be dissolved and that each of 
the independent tribes be allowed to negotiate in their own 
interest. That was done at the insistence of the tribe itself. 
I've submitted documentation in my report from the treaty 
journal itself to show the origin of that language.
    The Treaty of 1855 negotiated with Saginaw Chippewas 2 days 
later incorporated a lot of the language of the treaty that was 
made previously. The treaty with the Saginaw Chippewas was 
almost an afterthought for the treaty negotiators at that time. 
The Chippewas had no reservations in Michigan, they had no 
remaining annuities, and, as an afterthought, they negotiated a 
treaty to try to solve a bad political problem.
    The dissolution clause in the 1855 Treaty with the Saginaw 
Chippewas had no operative meaning; in fact, that language was 
never raised in any discussions about that treaty with the 
Saginaw Chippewas until the year 1870, after the Saginaw Swan 
Creek and Black River Chippewas had negotiated another treaty 
with the United States.
    The Indian agent in 1870 questioned the Commissioner of 
Indian Affairs on whether or not a tribe that was dissolved 
could negotiate a valid treaty with the United States. And, the 
Commissioner of Indian Affairs examined the situation and said, 
yes, they are an Indian tribe and they can negotiate a valid 
treaty. The dissolution language of the 1855 treaty was never 
again used in documents that I've seen concerning the Saginaw 
Chippewa Tribe, though it was raised and was used consistently 
to harm and damage the interests of the Ottawas and Chippewas 
from 1870 up until 1970.
    Mr. Kildee. The time has expired----
    Mr. Calvert. Does that answer your question?
    [Laughter.]
    Mr. Kildee. And that is--you will submit that for the 
record?
    Dr. McClurken. That has been submitted for the record, sir.
    Mr. Kildee. It has been, for the record. Right.
    [The information referred to may be found at end of 
hearing.]
    Mr. Kildee. Very good. I think my time has expired.
    Mr. Calvert. I'm sure we'll be coming right back to you----
    Mr. Kildee. Yes, the second round.
    Mr. Calvert. Mr. Knollenberg.
    Mr. Knollenberg. Thank you very much. I would like to 
extend as a matter of courtesy to all of the witnesses the 
opportunity to revise and extend their remarks and to submit in 
its entirety all of their summary, comments, charts, et cetera 
and, in particular, I believe it may already be a part of the 
information----
    Mr. Calvert. Indeed, all of these can be submitted to the 
record----
    Mr. Knollenberg. Including the chart, in particular?
    Mr. Calvert. Including the chart.
    Mr. Knollenberg. Thank you, Mr. Chairman. Thank you.
    I had to pause a little bit when I have heard it from a 
couple of different people--in fact, I think three now--that 
have testified that Congress should not meddle in this affair, 
Congress should get out. Congress was involved in the problem 
in the first place. That's why we have the difficulty that 
we're trying to straighten out today. That's why the injustice 
was created.
    And, frankly, Congress has the responsibility of taking 
care of its problems and this is one we're bringing to their 
attention today. So, I think it's perfectly within the rights 
of Congress obviously to deal with that.
    Let me suggest also--I know there's been reference made by 
a couple of the folks who have testified here--that we should 
use the system that's in place which may take 10, 15, 20 years. 
And, when you think about it for a moment, when an injustice 
was created by Congress why should it take 10 or 15 or 20 
years? There should be something far simpler, far more quickly 
done that would provide the proper recognition for the Act that 
took away their sovereignty some time back.
    I would like to refer to Chief Gould for a moment to 
respond to the testimony which I have a very difficult time 
understanding provided by the historian just a moment ago. And, 
if he wishes and if it were in order, Mr. Chairman, he could 
refer to the historian of their tribe.
    Chief?
    Mr. Gerald Gould. Thank you very much. What I'd like to do 
is take this opportunity to have our consultant, Dr. Michael 
Lawson, to respond to the comments made previously, if the 
Chair will allow.
    Mr. Calvert. The Chair will allow it.
    Mr. Gerald Gould. Thank you.
    Mr. Calvert. Just find a microphone on the other side.
    Mr. Lawson. I have prepared a statement that runs 
approximately five----
    Mr. Calvert. Please identify enter your name into the 
record.
    Mr. Lawson. Yes. My name is Michael Lawson. I am a 
historian and I have a wide range of experience evaluating and 
comparing relative the merits of tribal entities seeking 
recognition through both the Bureau of Indian Affairs process 
and through legislation. I am also familiar with Ojibwa 
history, having grown up in Genesee county, one of the six 
counties in which the Swan Creek Black River people primarily 
reside.
    For nearly 10 years, I was a historian with the BIA's 
Branch of Acknowledgement and Research, providing technical 
assistance to unrecognized tribes, evaluating the evidence 
contained in documented tribal petitions, and occasionally 
reviewing the evidence presented by tribes seeking recognition 
or restoration by Congress. I also helped draft the current 
revisions to the acknowledgment regulations. As a private 
consultant, I have conducted research and assisted unrecognized 
tribes seeking Federal recognition over the last 5 years.
    On the basis of my experience and the extensive and high 
quality documentation I have reviewed, it is my conclusion that 
Swan Creek Black River presents a particularly compelling case 
for Federal reaffirmation.
    Swan Creek Black River is a legitimate, treaty-based, 
tribal entity that represents a politically, socially and 
geographically distinct Indian community whose members have 
verifiable Ojibwa ancestry.
    For years, Swan Creek Black River and its members and 
researchers have been gathering historical, anthropological and 
genealogical information and evidence that fits both the BIA 
and congressional evaluations of what is required based on the 
seven mandatory criteria set forth in the acknowledgment 
regulations. In my opinion, based on this evidence, if Swan 
Creek Black River were to submit a documented petition to the 
BIA, this tribe would have a very favorable chance of being 
acknowledged as a federally recognized tribe.
    I am also of the fervent opinion that Swan Creek Black 
River could qualify for expedited consideration under the 
acknowledgment regulations based on its previous Federal 
recognition, perhaps as recently as 1982, when it was treated 
as having collective rights in a tribal judgment award of the 
U.S. Court of Claims--and I might add that Swan Creek Black 
River is still considered an active petitioner in the BIA 
process.
    I have submitted to the Committee a more detailed statement 
summarizing the evidence collected by Swan Creek Black River 
that likely meet all seven of the acknowledgement criteria. 
However, I think it is important to note that Swan Creek Black 
River satisfies the tribal membership criterion, contrary to 
the claim that we've heard here that it is a splinter group 
where membership is composed primarily of people enrolled in 
Saginaw Chippewa Tribe. About 80 percent of the Swan Creek 
Black River members are enrolled only with Swan Creek Black 
River, while the number of Swan Creek Black River members 
currently constitute approximately less than 1 percent of the 
Saginaw Chippewa membership. Most of these people are members 
of an unrecognized tribal group and do not receive Federal 
services.
    [Applause.]
    Mr. Lawson. It is not unusual for members of unrecognized 
tribes also to be enrolled in other tribes prior to 
recognition. Such was the case, for example, of Lac Vieux 
Desert Band of Michigan, nearly all of whose members were 
previously enrolled in other tribes. Congress has recognized 
tribes for which it determines the administrative process is 
not appropriate because of compelling, extenuating, historical 
circumstances and because the administrative process has proven 
neither timely nor efficient.
    In the 20-year period since the acknowledgement regulations 
were established in 1978, the BIA has resolved only 25 cases, a 
historical average of 1.25 cases per year. Still lacking 
adequate resources, the BIA now faces an overwhelming backlog 
of 27 fully acknowledged--fully documented but yet unresolved 
cases. At the present rate, the BIA might not take final action 
on Swan Creek Black River--for more than 20 years. This would 
mean that a generation of Swan Creek Black River elders would 
pass on without ever having the benefit of their right to 
continuous Federal recognition.
    [Applause.]
    Mr. Lawson. It is neither appropriate nor fair that this 
tribe should have to wait 20 years or more to demonstrate that 
it meets the acknowledgement criteria since 1982 and, even if 
H.R. 1154 or a similar bill or reform legislation were enacted, 
it could take years before the new procedures were promulgated 
and even more years to clear the present backlog of cases.
    Since 1982, Congress has legislatively recognized or 
restored eight worthy tribes that were also acknowledgement 
petitioners, including four in Michigan. Of the four Michigan 
tribes, however, only two proceeded very far in the BIA's 
process: the Little Traverse Band of Odawa and the Little River 
Band of Ottawa submitted letters of intent to proceed through 
the acknowledgement process. But, they never did. Instead, 
these tribes secured legislative recognition in 1994.
    My review of the evidence in these cases convinces me that 
Swan Creek Black River is similarly situated--if not better 
situated--than these other legislatively recognized tribes. In 
summary, while the acknowledgement process might be the best 
method for evaluating probably 95 percent of the unrecognized 
tribes that are still out there, given the extenuating 
circumstances that I have described it is more appropriate and 
fair for Swan Creek Black River to be reaffirmed legislatively.
    And, in closing, I'd like to say that based on my knowledge 
of the history and issues involved it appears that the Saginaw 
Chippewa have badly distorted the facts and mischaracterized 
the Swan Creek Black River people and their history. Such----
    [Applause.]
    Mr. Calvert. The Chair would ask the audience to refrain 
from public adulation.
    Mr. Lawson. Such audacious prejudgment of the case also 
ignores the fact that, one, the granting of tribal recognition 
or restoration is solely the Federal Government's decision to 
make and not the Saginaw Chippewas; and two, that this is not 
an adversarial process. Furthermore, not even the Saginaw 
Chippewa can credibly deny that the Swan Creek Black River have 
a constitutional right to petition Congress to address an 
unresponsive governmental bureaucracy.
    Thank you, Mr. Chairman. That concludes my remarks.
    [The prepared statement of Mr. Lawson may be found at end 
of hearing.]
    Mr. Calvert. I thank the gentleman.
    The gentleman from American Samoa. The gentleman is 
recognized for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I do have a couple of questions and I wanted to thank my 
good friend, Congressman Knollenberg, to again reemphasize the 
fact that Congress has the plenary authority to do whatever it 
pleases as it relates to the nations of the Indian tribes under 
the Constitution of the United States.
    There are some problems that I would like to share with the 
members of the panel.
    I would like to ask Chief Chamberlain, how many members 
make up the Saginaw Tribe?
    Mr. Chamberlain. Approximately 2,800.
    Mr. Faleomavaega. Twenty-eight hundred. And, Chief Gould, 
how many do you claim to represent in the Swan Creek Tribe?
    Mr. Gerald Gould. Approximately 200.
    Mr. Faleomavaega. Am I correct to say that every Swan Creek 
and Saginaw are interrelated?
    Mr. Chamberlain. I am Swan Creek Black River.
    Mr. Faleomavaega. Chief Gould, are you also Saginaw?
    Mr. Gould. No. No, I'm not; I'm just Swan Creek Black 
River.
    Mr. Faleomavaega. I noticed that Secretary Gover had 
indicated that the Swan Creek did file a letter of intent with 
the division of the BAR, they call it--the fancy title of the 
BAR--in 1993. Was that true?
    Mr. Gerald Gould. Yes.
    Mr. Faleomavaega. Did you then receive an OD from the 
Department of the Interior--it's called an letter of Obvious 
Deficiencies and Significant Omissions. Has your tribe followed 
through since 1993 in responding to those areas of concern by 
the division of BAR?
    Mr. Gerald Gould. We have done extensive research since 
1992, 1993 and we looked at the difficulties of going through 
the current Federal application process and, based upon being a 
treaty-based tribe, have not continued that process after we 
researched it.
    Mr. Faleomavaega. So, in other words, after receiving your 
OD from the--from this division that there----
    Mr. Gerald Gould. Well, because we did not receive an OD.
    Mr. Faleomavaega. You didn't?
    Mr. Gerald Gould. No.
    Mr. Faleomavaega. Secretary Gover, can you respond to that?
    Mr. Gover. No, that's correct. They've not received a 
letter of Obvious Deficiencies. They've only filed a notice. 
They haven't actually filed a petition, yet.
    Mr. Faleomavaega. But, the BAR did not provide any response 
to the tribe?
    Mr. Gover. Only to acknowledge receipt of their letter of 
intent. But, we've received no further information from the 
tribe since that time.
    Mr. Faleomavaega. I want to say to both Chiefs here, this 
is the very thing that I feared very much. Now we have two 
historians fighting among themselves as to who's telling the 
gospel truth about the case at hand and it's really sad to see 
that we're--I just can't conceive how we, as members of this 
panel, are going to be overnight experts and say who's telling 
the truth and who's not.
    And, I find it very difficult to see how we're going to 
find a solution to the fact that everybody agrees that the 
current system of giving recognition to tribes is totally 
unacceptable. But, coming to that agreement and having tried 
for the past 6 years to provide legislation to provide a more 
fair system of recognition--and that has failed--so we're right 
back to ``square one'' and I'm sorry to say that we were not 
able to resolve that issue.
    I'd like to ask the historian for Chief Gould, if I could, 
you were personally involved as a historian with the 
recognition process and worked for the Department of the 
Interior, am I correct?
    Mr. Lawson. Yes, that's correct; from approximately 1984 
until 1993.
    Mr. Faleomavaega. And during that 10-year period, did you 
think the BAR was doing a great service to the Indian 
communities seeking recognition?
    Mr. Lawson. I think we were doing the best job that we 
could under the circumstances and I think that the 
circumstances are that there weren't enough resources for us to 
do a job in a timely manner.
    Neither, I might add, do I think that there are enough 
resources for tribes that are seeking Federal recognition to 
adequately have allowed them to document, to present the large 
documentary record that's required by the acknowledgement 
process.
    Mr. Faleomavaega. Recognizing the fact, Chief Gould, that 
since 1993 you felt that the system of Federal recognition was 
just bizarre, why have you waited until now to ask the Congress 
to give full recognition to your tribe? Why didn't you request 
immediately that let the Congress do the recognition process 
rather than BAR?
    Mr. Gerald Gould. Well, it's--even the legislative process 
is difficult. Even the legislative process is complicated for 
people who don't understand it. Plus, we were gathering 
documentation.
    The case that we present to you today is the result of 
years and years of research, both here in Washington, DC--where 
you have the majority of the records and we don't live--and the 
State of Michigan, and we have spent many, many years gathering 
the documentation that we provide to you today. But, also, 
we're not familiar with the entire legislative process as well.
    Mr. Faleomavaega. My problem, Chief Gould--I know, Mr. 
Chairman, my time is up--you're to come up with 5,000 pages to 
justify your position and Chief Chamberlain is going to come up 
with 5,000 pages justifying his position and then it puts us in 
a very difficult situation who is who and what and where and, 
you know, what do we want to do about this. That's my problem 
and I'm sorry that my time is up.
    Mr. Calvert. You have the staff worried. That means they'd 
have to read 10,000 pages.
    [Laughter.]
    Mr. Calvert. The gentleman from Michigan, Mr. Camp.
    Mr. Camp. Thank you, Mr. Chairman, and I want to follow up 
on the comments of my friend from American Samoa.
    Mr. Gover, let me ask you this. If I understand your 
testimony correctly, the Department of Interior is opposed to 
H.R. 2822 because there are many unanswered questions regarding 
this situation.
    Mr. Gover. That's correct.
    Mr. Camp. And, I know that you have questions regarding the 
group's membership, their history, their community and their 
tribal government. In fact, I believe you don't even have a 
current membership list of the Swan Creek Black River Tribe. Is 
that correct?
    Mr. Gover. That's correct.
    Mr. Camp. And, because of that I know that you feel you 
could use more information and that because so little 
information has been provided to you that you aren't even in a 
position to adequately evaluate the political relationship 
between the group and the Saginaw Chippewa Tribe.
    Mr. Gover. That's right. At this point, we have no idea. We 
don't even know who the group is because we don't have a 
membership list. So, we're unable to say whether they're even 
Indians except by looking at them and that's usually not good 
enough for Federal recognition. That's why we would much prefer 
to, at least, make some progress on the BAR process so that we 
can have our historians who have no axe to grind here take a 
look and give us their best opinion on whether or not this 
group is a separate Indian tribe.
    Mr. Camp. And, the two bands signed a treaty in 1855 and a 
later one in 1864 which established a reservation for these 
bands right near Mt. Pleasant, Michigan. Is that accurate?
    Mr. Gover. That's my understanding, yes.
    Mr. Camp. And that you don't have any clear evidence that 
the Swan Creek band remained after these treaties as a separate 
and distinct entity or independent tribe?
    Mr. Gover. We don't rule that out but we have no such 
evidence at this point.
    Mr. Camp. And you haven't received any evidence since 1993 
to the contrary?
    Mr. Gover. Only a very minimal amount of evidence.
    Mr. Camp. Is it also true that, in 1986, in the 
Distribution of Judgment of Funds Act, there was a provision 
that said that the Saginaw Chippewa Tribe should open its 
enrollment for 18 months and that was open to individual who 
could demonstrate either Swan Creek or Saginaw Chippewa 
ancestry, is that correct?
    Mr. Gover. Yes.
    Mr. Camp. And, because of that, tribal membership increased 
during that 18 month enrollment period?
    Mr. Gover. Considerably, yes; it tripled.
    Mr. Camp. And you believe that much of the off-reservation 
Swan Creek band were likely to have become members of the tribe 
during that open enrollment process----
    Mr. Gover. Yes.
    Mr. Camp Is that true?
    Under this legislation, there is a 12-county service area 
proposed for this tribe, which would include the most populated 
counties in the State of Michigan--including the entire city of 
Detroit. Are there any problems with a service area of that 
size?
    Mr. Gover. Well, there are. That's unusually large for the 
tribes in Michigan and I notice that they define a service area 
as basically the aboriginal lands before their Treaty of 
Detroit. And, that's a very considerable service area for a 
tribe in that part of the country. It will certainly tax the 
tribe's resources and our own to be able to serve people in 
that broad of a geographic area.
    Mr. Camp. Thank you very much and I would just say that I 
think this is why the specialized staff of BAR exists--for 
reviewing this complex information and for analyzing these 
petitions for Federal recognition--and I guess, again, I would 
say that this process has not been utilized fully. There are 
some situations where unfair denial has occurred in the history 
of this country but there is a process there that is available 
and open and it's clear that that has not been used yet. And I 
would again thank the chairman for allowing me to testify and 
also to be a part of the panel later. Thank you.
    Mr. Calvert. I thank the gentleman. If everyone will be 
patient for a minute, Mr. Kildee has a couple of extra 
questions----
    Mr. Gerald Gould. Mr. Chairman?
    Mr. Calvert But before I do that, I'm going to go through a 
little business of this Committee and then I'll be recognizing 
Mr. Kildee and others for another round of questions.
    Mr. Gerald Gould. Could we have an opportunity to respond 
to the----
    Mr. Calvert. The gentleman will have some time to respond 
after I get through with this additional business.
    [Whereupon, at 2:36 p.m., the committee proceeded to other 
business, to resume at 2:37 p.m.]
    Mr. Calvert. [presiding] Mr. Kildee.
    Mr. Kildee. I thank you again, Mr. Chairman.
    Back in the--it would be 10 years ago or more, I introduced 
and was chief sponsor of a settlement bill for the Saginaw 
Chippewa Tribe. Were the Swan Creek Black River members of the 
Saginaw Chippewa Tribe involved in that settlement and in the 
distribution of that settlement? Chief Chamberlain?
    Mr. Chamberlain. Yes, they were.
    Mr. Kildee. They were. So--and, in that, the settlement was 
between the sovereign nation of the United States and the 
sovereign Saginaw Chippewa Tribe and the Swan Creek Black River 
people participated in that settlement?
    Mr. Chamberlain. Definitely. Again, I want to clarify the 
earlier question just for your own clarifications, if you 
don't--if it didn't make sense. When he asked me how we're 
interrelated, I said I was Swan Creek Black River. What I mean 
by that--and this is how I participated--I'm a descendant of 
the Swan Creek Black River people. Within tribes, they'll ask 
you, I'm a turtle clan, I'm bear clan. I am a descendant--and 
that's where I descend totally from--but I'm Saginaw Chippewa 
and that's what compiles--I mean, it was a question that you 
asked earlier, that's why----
    Mr. Faleomavaega. It was my question.
    Mr. Chamberlain. Yes. But, that goes and it correlates into 
what you just asked. Yes, they participated.
    Mr. Kildee. So, they were--it was a settlement between the 
sovereign United States and the sovereign Saginaw Chippewa 
Tribe and the Swan Creek Black River were involved in that 
settlement as members of the Saginaw Chippewa Tribe?
    Mr. Chamberlain. Definitely.
    Mr. Kildee. Let me ask this to Mr. Gould. You sent your 
letter of petition--or a letter of intent, I should say--in 
1993. Why did you not ever followup with a formal petition?
    Mr. Gerald Gould. For two reasons, Congressman. One, we 
were following--we examined the process of the BAR, which is 
extensive, we realized it could take us 15 to 20 years. Two, we 
were in the process of doing research and the research and 
documentation that you have here today. And, three, after 
realizing that we had been federally recognized before in 
numerous treaties, that we wanted to reaffirm our trust 
relationship through the legislature, which was the appropriate 
method to go.
    Mr. Kildee. I always, myself, whenever I introduce a bill 
call it reaffirmation because you're--the sovereignty of the 
Saginaw Chippewa Tribe, for example, was not granted to them. 
It was a sovereignty they retained before the first Europeans 
ever came here.
    Let me ask you this--another question. Were you ever 
yourself, Mr. Gould, considered a member of the Saginaw 
Chippewa Tribe?
    Mr. Gerald Gould. Yes.
    Mr. Kildee. Did you participate in the government----
    Mr. Gerald Gould. I was a member of Swan Creek----
    Mr. Kildee. [continuing] of the Saginaw----
    Mr. Gerald Gould. [continuing] Black River.
    Mr. Kildee. OK. As the present Chief participates.
    Were you ever involved in the government of the Saginaw 
Chippewa Tribe?
    Mr. Gerald Gould. Yes, I was involved and I felt I was 
representing Swan Creek Black River.
    Mr. Kildee. What capacity were you involved in the 
government of the Saginaw Chippewa?
    Mr. Gerald Gould. The tribal council of Swan Creek Black 
River.
    Mr. Kildee. You were on the tribal council of the Saginaw 
Chippewa Tribe.
    You brought documentation here. Do you intend to turn that 
documentation over and complete your letter of intent to Kevin 
Gover on trying to achieve recognition in that manner?
    Mr. Gerald Gould. What is the question?
    Mr. Kildee. Well, you brought a box of documentation here--
--
    Mr. Gerald Gould. Right.
    Mr. Kildee. [continuing] for our staff to look over. Will 
that documentation also be sent to the BIA as part of the BAR 
process?
    Mr. Gerald Gould. It's part of the legislative process that 
we're involved in now. That's why we're turning the 
documentation over to you.
    Mr. Kildee. So, you are precluding, then, using the BAR 
process?
    Mr. Gerald Gould. Because we feel that it's not 
appropriate. Just like other tribes that you have supported to 
go through the legislative process, we feel it's not 
appropriate for us either.
    Mr. Kildee. Well, the Huron Potawatomi band, about 2 years 
ago, went through the BAR process and achieved recognition. 
That's another Michigan tribe that received recognition through 
the BAR process. It would seem to me that you might want to 
pursue that BAR process as the Huron band of the Potawatomis 
did. And, they did get their sovereignty reaffirmed. Why are 
you reluctant to go through the BAR process?
    Mr. Gerald Gould. Because we feel we're akin to the two 
Odawa groups--Little River and the Grand Traverse bands--which 
went through the legislative process which didn't really 
provide--well, it provided probably as much as documentation as 
we have to the BAR.
    Mr. Kildee. Yet, the Huron Potawatomi--they found a 
successful road to follow and got recognition through the BAR 
process and that's a Michigan tribe----
    Mr. Gerald Gould. Right.
    Mr. Kildee. [continuing] also. The Potawatomi, I know, are 
not quite Odawa or Chippewa but--or the Algonquin--it would 
seem to me that precluding the BAR process and not following 
through with your letter of intent might be reconsidered.
    Mr. Gerald Gould. Well, that's what Little River did and we 
know the process that we're going through now is one that is 
not precedent-setting and we know that you're aware of, for 
example, in Michigan that Sioux Saint Marie had previously been 
a part of Bay Mills and they realized--the U.S. Government 
realized--that they had made an error, that they had combined 
two tribes that were separate politically. They were both 
Ojibwa but they had different tribal Indian entities.
    This error occurred again by previous government when 
Keweenaw Bay was combined with Lac Vieux Desert; two different 
Ojibwa groups of people--like we are--geographically apart and 
the United States, at their request, was able to resolve the 
situation and allow the two groups to be recognized separately.
    So, now there is Lac Vieux Desert, there is Keweenaw Bay, 
there is Sioux Saint Marie, there is Bay Mills. These are 
separate, political Indian entities and the U.S. Government 
realized that mistake just like when we had been artificially 
combined with other groups of Ojibwa, Potawatomi, Odawa up in 
Mt. Pleasant. We had been relocated there by our Treaty of 1836 
and our previous Treaty of 1807, which established our own--our 
singly own--reservation, and an amendment was made that, you 
know, the geographic areas are going to be separated.
    No, we are not from the Saginaw Valley area. Unfortunately, 
good, bad, or indifferent, we have no control over history but 
we are from southeastern lower Michigan, which is Swan Creek. 
That is where our people lived, that is where our treaties were 
devel-

oped, that's where our reservations were. We had approximately 
12 square miles of reservations down in that area and that's 
where we're from. That's where our people lived until we were 
relocated.
    And, even after we were relocated to the reservation, we 
continued to be separate because we still maintained our 
annuity roles separately from other tribes while we were there.
    Mr. Kildee. Thank you. Before I close, I'd like to just 
thank Kevin Gover for everything he's done to improve this 
administration's relationship with the Indian tribes. I find it 
a pleasure of working with you, Kevin, and I just wanted to put 
that on the record.
    Mr. Gover. Thank you.
    Mr. Calvert. I thank the gentleman.
    Mr. Knollenberg.
    Mr. Knollenberg. Mr. Chairman, thank you very much.
    I have a quick question for Mr. Gover. How long would it--
if you had everything tomorrow--if you had all the 
documentation you needed, everything in your lap, how long 
would it take you to come to a point of Federal recognition?
    Mr. Gover. I don't know the answer to that. It's a hard 
question.
    Mr. Knollenberg. No, no, no. You had it all tomorrow. If 
you had all tomorrow. It's on your lap. You've got it. How long 
does it take you to come to the grips with the question and 
determine one way or the other?
    Mr. Gover. It would depend upon my willingness to bump 
aside a number of other petitioners who have been waiting a 
long time. If we took in that information and told you we were 
going to consider it starting tomorrow, maybe a year from now 
we'd have a determination from the BAR staff.
    Mr. Knollenberg. Maybe a year?
    Mr. Gover.  I'm not going to tell you that we would do that 
because I'm not, at this point, willing to set aside those 
other petitioners.
    Mr. Knollenberg. But you could do it in a year?
    Mr. Gover. We could probably do the initial round of 
findings. The way the process works, we do an initial round of 
findings, put it out for comment from the public from the 
interested parties and the petitioner, and then we consider 
those comments. So, it's a process of probably 2 years from the 
moment that we actually begin active consideration.
    Mr. Knollenberg. With all of the other petitions, how long 
would it take?
    Mr. Gover. Well, that's what I say. I don't know. A lot of 
those petitions fall by the wayside over time.
    Mr. Knollenberg. So, it could be sooner.
    Mr. Gover. Pardon me?
    Mr. Knollenberg. It could be sooner.
    Mr. Gover. Sooner than 2 years? No, sir; it cannot be any 
sooner than that.
    Mr. Knollenberg. It's interesting how you came to that 
determination. But, I would just say to you that it would seem 
to me that if you had everything tomorrow, it would not take 
quite so long. And, you could give us something in terms of a 
finite date that might suggest when.
    I want to turn and yield some time now to Chief Gould, who 
might wish to respond in closing or through the historian on 
any matter that was brought up during the previous questioning.
    Chief Gould.
    Mr. Gerald Gould. Thank you, Congressman. I would like to 
have our expert from the BAR respond to your question on the 
length of the BAR process, assuming that they had all of the 
documents immediately.
    Mr. Lawson. Well, if there was a consideration to waive the 
other active petitioners at this point, there are approximately 
27 fully documented petitions before the BAR as of their latest 
petition status sheet. There are approximately 15 that are in 
various stages of active consideration and about 12 that are on 
the waiting list.
    So, if you do the math--there's 27 cases that are 
unresolved at this point and the historic record has been that 
they've been resolving 1.25 cases per year, then--without a 
waiver of those other cases--you're looking at approximately 20 
years before you'd get a final decision, in my view.
    Mr. Knollenberg. That contrasts sharply with what I just 
heard from the other gentleman.
    Any other comments? Chief Gould?
    Mr. Gerald Gould. Congressman Knollenberg, may our allow 
our subchief to do our summary for us?
    Mr. Knollenberg. Very good.
    Mr. Gerald Gould. Thank you.
    Mr. Calvert. This will be the final witness.
    Would you please recognize yourself for the record?

STATEMENT OF HAROLD GOULD, ADMINISTRATIVE SUBCHIEF, SWAN CREEK 
                          BLACK RIVER

    Mr. Harold Gould. My name is Harold Gould, Administrative 
Subchief of Swan Creek Black River.
    Mr. Calvert. The gentleman is recognized.
    Mr. Harold Gould. OK. I'm here--it's very much of a 
preponderance to me of what words I put forward to you of our 
peoples. We were a separate nation. We've been waiting a long 
time. In 1934, we were rejected. In 1855, we were combined.
    We just seek justice. We seek justice for our people--for 
our old people and our children and children unborn. We've been 
waiting a long time. I've been associated with the Saginaw 
Chippewa. I dearly love those people, a wonderful people. But, 
they are not my people.
    Kevin has worked earnestly and hard to bring about change 
and he has been successful in some areas and I've been very 
supportive of him in this change. I feel that, all in all, we 
still need our people who are the leaves in the fall which blow 
across a stream, who fill the earth. We just want a small piece 
to reside. That is all we ask for; we don't ask for all of 
Detroit, we don't ask for anything like that, we just want a 
place to raise our children, a place to continue our culture. 
That's all we ask for.
    We want to work with the Saginaw Chippewas. They're 
brothers, just like us. And, we want to help each other, lift 
each other up. That's what it's all about. These people have 
travelled a long dis-

tance here. Most of them are not members of the Saginaw 
Chippewa Tribe or will never be members of the Saginaw Chippewa 
Tribe, as the constitution has forbade. And, for them, we 
strive. We are willing to give up all for them. That is the 
hope of our future. That is true tribalism, as we understand 
it; giving to each other, sharing with each other, and 
maintaining our culture together.
    This, I feel--this striving effort which we must make--we 
understand Kevin Gover here is working very diligently for 
Indian people but, unfortunately, Congress has chosen 
repeatedly in the past to underfund the Bureau. That is the 
reason for the bottleneck. If he had had enough money, he could 
resolve these issues immediately. But, Congress is the fault, 
not Kevin, not the previous Director.
    We only ask for our little piece of land. We ask for a 
future for our children. That's all we ask for. I ask you to 
render a favorable decision for us. Give us a chance for the 
future. Give us an opportunity to live as we're meant to live. 
We have been pursuing this vision for decades; one generation 
after another have been handed this same vision. It is an 
effort and a burden upon. We have spend unending hours pursing 
it. And, now, we are about to achieve, or we hope to achieve, 
with your help and that's all we ask.
    Mr. Kildee, you have been strong in supporting Native 
people through out history. Your whole life is dedicated to 
helping Native people. We ask that you support us. Don't turn 
your back. We ask that you bring--vote for it and we hope that, 
in the future, our people and the Saginaw Chippewa people will 
work together to uplift ourselves, bring out some meaningful 
change for the entire Native American community.
    Thank you very much for hearing me out. Any questions? I'll 
be happy to answer them.
    Mr. Knollenberg. Mr. Chairman, I do not have any questions. 
I would like to yield back my time. Thank you, thank Mr. 
Kildee, thank the entire group that's assembled here today for 
your courtesy in allowing this testimony and we very much 
appreciate your allowing us that extension of courtesy. Thank 
you.
    Mr. Calvert. I thank the gentleman.
    Mr. Kildee has a quick change in a statement that I know. 
The gentleman from American Samoa has a quick closing 
statement. I'm attempting to close the hearing up by 3 o'clock 
for our commitments.
    So, Mr. Kildee?
    Mr. Kildee. This is primarily for the court reporter but I 
meant to say the Huron Band of Potawatomi and I may have said 
Huron Band of Pokagon. But, there's a Pokagon Band of 
Potawatomi. So, for the record, I was referring to the Huron 
Band of the Potawatomi.
    Mr. Calvert. I thank the gentleman..
    Mr. Faleomavaega. For the record, I want to commend 
Assistant Secretary Gover with whom I've had the privilege of 
working very closely with in developing and streamlining this 
proposed legislation that was defeated yesterday by the House 
to better improve the procedures on how to federally recognize 
a Native American Indian tribe.
    I would be the last person sitting here, as a member of 
this Committee, to say that I know all about the differences 
between the Chippewas and the Ojibwas. And, to suggest that 
we're going to make a judgment on this thing--I want to, again, 
recall the suggestion by our friend from Michigan, Congressman 
Knollenberg.
    It is my sincere hope that Congressman Kildee, our 
colleague on this side of the aisle, and the members of the 
Majority will sit in council again with the leaders of both 
groups and hopefully that there will be some common solution to 
this problem. I sincerely hope that we will be able to do that 
and, again, thank both Chief Gould and Chief Chamberlain, 
again. I can't make a judgment. I mean, I'm a chief myself but 
a small chief. But, I sincerely hope that we will find a remedy 
to this problem before the Committee.
    Thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentleman, and, in closing, I 
would say as the others have pointed out that hopefully during 
the Thanksgiving holiday, everyone gets together and attempts 
to work out some remedy to this very complex problem. And, we 
thank you for traveling such a great distance to testify at 
this hearing today. I'm sure we have not heard the last of this 
and look forward to seeing you probably next year, if Mr. 
Knollenberg has anything to say about it.
    With that, this hearing is adjourned.
    [Whereupon, at 2:55 p.m., the Committee adjourned subject 
to the call of the Chair.]
    [Additional material submitted for the record follows.]
Statement of Kevin Chamberlain, Chief of the Saginaw Chippewa Tribe of 
                                Michigan

Introduction

    Good morning, Congressman Calvert, Congressman Kildee and 
Members of the Resources Committee. My name is Kevin 
Chamberlain, Chief of the Saginaw Chippewa Indian Tribe of 
Michigan. Thank you for the opportunity to appear before this 
distinguished body to voice the Tribe's opposition to H.R. 
2822.
    My testimony will consist of brief remarks on why this 
Committee should oppose H.R. 2822. I respectfully request that 
this written testimony, including the Tribe's historical 
analysis prepared by Dr. McClurken, be entered into the record.
    The Saginaw Chippewa Tribe vehemently opposes H.R. 2822. 
Any action on this bill is of utmost concern to the Tribe 
because its effect, if passed, would be to separate the 
federally recognized and long-standing Saginaw Chippewa Tribe 
into two separate federally recognized tribes. It would allow a 
splinter group to claim treaty-preserved rights, political 
jurisdiction and sovereignty currently held by the Saginaw 
Chippewa Tribe. Our position is staunchly set upon our desire 
to preserve our Tribe's heritage and sovereign status and to 
protect the tribal sovereignty of all Indian nations by 
preventing political factions and splinter groups from being 
able to secede from their tribes and create sovereign nations 
unto themselves.
    The Saginaw Chippewa Tribe opposes H.R. 2822 because (1) 
the bill deals with a tribal membership issue; (2) the bill 
seeks to circumvent the appropriate administrative process; (3) 
because the driving factor behind H.R. 2822 is gaming; and (4) 
because the Swan Creek Group cannot meet the criteria necessary 
to become a tribe.
    This is not a meritorious claim--it is an attempt by 
wealthy businessmen to buy a tribe and push a bill through 
Congress for the ultimate purpose of establishing a new casino 
in Southeastern Michigan.

Membership Issue

    The Saginaw Chippewa Tribe not only opposes H.R. 2822's 
content, but also opposes the holding of this hearing today. 
With all due respect, we challenge the Resources Committee's 
decision to hold a hearing on this bill. H.R. 2822 deals 
strictly with an intra-tribal membership matter. There should 
be no Congressional intervention on a matter so fundamental to 
a sovereign nation's existence.
    As you know, Indian tribes are ``distinct, independent 
political communities''\1\ qualified to exercise powers of 
self-government, not by virtue of any delegation of powers by 
Congress but by reason of their original tribal sovereignty.\2\ 
The United States' courts have consistently held that one of an 
Indian tribe's most basic powers is the authority to determine 
questions of its own membership.\3\ The Saginaw Chippewa Tribe 
has long been recognized by the United States as a sovereign 
nation and should be allowed to handle this membership issue as 
such.
---------------------------------------------------------------------------
    \1\ Worcester v. Georgia, 31 U.S. (6 Pet.) 515 (1832).
    \2\ United States v. Wheeler, 435 U.S. 313 (1978).
    \3\ Felix S. Cohen's Handbook of Federal Indian Law citing Santa 
Clara Pueblo v. Martinez, 436 U.S. 49 (1978); Cherokee Intermarriage 
Cases, 203 U.S. 76 (1906); Roff v. Burney, 168 U.S. 218 (1897).
---------------------------------------------------------------------------
    The Swan Creek Group, the party pushing this bill, claims 
that they are the successor in interest of the Swan Creek and 
Black River Bands of Chippewa Indians. Yet, the Swan Creek and 
Black River Bands had always been two constituent parts of the 
Missisauga Chippewa, the name used before and during the treaty 
era when referring to the Chippewa Bands in Southeastern 
Michigan. Later, after the 1855 Treaty of Detroit, these bands 
combined with the Saginaw band to become the Saginaw Chippewa 
Tribe. The United States has consistently recognized the 
Saginaw Chippewa Tribe as the exclusive successor in interest 
to the Saginaw, Swan Creek and Black River Chippewa Indians. 
These bands are indistinguishable from one another and have no 
separate existence as distinct entities. For over 140 years, 
the Tribe has accepted the bands within its membership and 
provides services to all members in the process, regardless of 
band affiliation.
    The Swan Creek Group, however, claims that they are a 
separate entity deserving of sovereign nation status. This is 
absolutely untrue. Most of the Swan Creek Group's participants 
are currently enrolled members of the Saginaw Chippewa Tribe, 
including Mr. Gerald Gould, the Swan Creek Group's organizer. 
In forming his group, Mr. Gould recruited members for his group 
by sending membership forms to enrolled members of the Saginaw 
Chippewa Tribe. The Swan Creek Group is merely a group of 
individuals who wish to split from the Tribe. Individuals who 
are members and beneficiaries of one Indian nation should not 
be able to simply secede and create their own nation complete 
with the rights and privileges of all Indian tribes whether 
because of political differences, personal choices to live away 
from the reservation, or for any other reason. The existing 
sovereign nation to which the individuals belong should resolve 
such membership issues internally. Tribal politics is not a 
matter for Congress; it is a matter for the members of the 
Saginaw Chippewa Tribe and their elected leaders.
    For the record, the Saginaw Chippewa's Tribal Council has 
exercised due diligence in addressing the Swan Creek Group's 
needs. Again, the Tribe serves all its members with health, 
education, vocational, housing and other programs without 
distinguishing which members may descend from the Saginaw, Swan 
Creek or Black River Bands. Indeed, because there has been so 
much intermarriage between band members over the generations, 
most members of the Tribe descend from more than one band. The 
needs of members who live off the reservation are met through 
its At-Large Program which provides numerous services and 
benefits specifically for them. None of the Swan Creek Group 
participants including Mr. Gould have relinquished membership 
in the Saginaw Chippewa Tribe and they remain eligible for all 
tribal benefits and rights, including gaming per capita 
payments.
    Annually, the Tribe spends approximately $970,000 on At-
Large Programs which include, but are not limited to, health 
services; medical services--including transportation to medical 
appointments; living expense needs, (food costs; house 
payments; rent; land tax payments; utilities) burial grants; 
educational seminars; and family services. Further, the Tribe 
spends roughly $550,000 per year on cultural enrichment 
programs for the At Large residents and $468,000 on medical 
coverage.
    The programs are freely accessible to all At-Large persons. 
Over 1290 At-Large persons live within two-hours of the 
reservation and take full advantage of these programs. If the 
Swan Creek Group is stating that they get disparate treatment 
for not living on the reservation--this is absolutely not the 
case. They are free to take advantage of all the programs. It 
is not the Tribe's fault if persons live far from the 
reservation--it can only provide the services and programs to 
the best of its ability. The At-Large Programs funded and 
administered by the Tribe generously provide for myriad needs 
of the Tribe's At-Large membership.
    Also, there is a seat guaranteed on the Council for a 
representative from the At Large District so that such 
individuals that comprise this District are fully represented 
and have a voice in the governing body.\4\
---------------------------------------------------------------------------
    \4\ Article IV, The Amended Constitution and By-laws of the Saginaw 
Chippewa Indian Tribe of Michigan, approved by the United States 
Congress by Public Law 99-346.
---------------------------------------------------------------------------
    The Saginaw Chippewa Tribal Council has also met many times 
with representatives of the Swan Creek Group to better 
understand and address its concerns. In most recent meetings 
held earlier this year, the Swan Creek Group informed tribal 
leaders that no political accommodations or additional benefits 
would appease them. They simply want their own Tribe.
    Again, it is the sovereign nation of the Saginaw Chippewa 
Tribe that must resolve this issue, not Congress. Congress' 
intervention in this manner is an affront to the Tribe's 
sovereignty and sets a dangerous precedent for all tribes.

H.R. 2822 Circumvents the Administrative Process

    Since Congress has decided to participate in this intra-
tribal issue, the Saginaw Chippewa Tribe must voice its opinion 
that H.R. 2822 is nothing more than an attempt to politically 
circumvent the appropriate process for becoming a federally 
recognized Indian tribe--and to do so without first contacting 
the Congressmen whose districts would be most affected by such 
legislation.
    The Bureau of Indian Affairs'(BIA) Bureau of Acknowledgment 
(BAR) exercises the United States' authority to determine 
Federal recognition of Indian tribes. The BIA's Federal 
Acknowledgement Process (FAP), set forth in 25 C.F.R. Part 83, 
delineates the criteria a group must meet before it can be 
deemed a tribe. Since acknowledging a group as a tribe carries 
with it many rights and privileges, the FAP process calls for 
in-depth historical and cultural analysis and a finding that 
the group has existed as a distinct, social and political 
entity from the time of the last unambiguous Federal 
recognition. This method requires extensive ethnological 
scrutiny. With all due respect, Congress is not equipped with 
time or expertise to engage in such detailed study and review. 
Recognizing a sovereign nation certainly cannot rest on five 
minutes of oral testimony from the parties involved.
    Nor should it. It is of too great significance. Recognizing 
a sovereign nation, must be a deliberative process. It warrants 
prudence, examination and expertise. This is exactly why 
Congress and the courts have deferred to the BIA which is 
specialized to handle the issue.
    Legislative recognition and abandonment of the FAP process 
is not only heedless of longstanding procedure, but it is 
unjust because it allows financially supported and politically 
connected groups to ``jump the line'' ahead of legitimate 
tribes that have adhered to the administrative process and are 
awaiting review of their applications.
    True, Congress has legislatively recognized tribes in the 
past. Yet, since the FAP process was implemented in 1978, there 
have only been seven instances of legislative recognition. The 
Swan Creek Group, in the findings section of H.R. 2822, 
attempts to liken its situation to that of a few tribes that 
recently received legislative recognition. The Swan Creek 
Group's situation, however, does not compare to these tribes. 
Those tribes had nearly completed the BAR process and were on 
active consideration at the BIA,\5\ or otherwise had proved 
their long histories of being distinct social and political 
organizations that maintained relationships with the United 
States from treaty times to the present.\6\ Unlike these tribes 
the only action the Swan Creek Group has taken towards the FAP 
process was the filing of a letter of intent to petition in 
1993. The Swan Creek Group has not yet filed a petition, or any 
other documentation to further their pursuit of recognition, 
even after the BIA contacted the group and requested additional 
information from it.
---------------------------------------------------------------------------
    \5\ Statement of Deborah Maddox, Acting Director, Office of Tribal 
Services, Bureau of Indian Affairs, Department of the Interior, Senate 
Report No. 103-260, 103rd Cong., 2nd Sess. 1994.
    \6\ H.R. Rep. No. 103-631, 103rd Cong., 2nd Sess., 1994; 25 U.S.C. 
Sec. 1300k.
---------------------------------------------------------------------------
    The Swan Creek Group hopes for the same treatment given the 
aforementioned tribes regardless of the differing 
circumstances. It urges legislative recognition on the basis 
that the FAP process is too long and burdensome. It is the 
Saginaw Chippewa Tribe's contention that it should be. Because 
of the significance of becoming a federally recognized Indian 
tribe, there should be strict criteria to adhere to and a 
specialized team that ensures, without doubt, that the group's 
historical background justifies the granting of Federal 
recognition.
    If the FAP process is too long or burdensome for applicants 
to manage, Congress' role should be to rectify the process. The 
answer is not to legislatively recognize groups on a piecemeal 
basis--especially, groups such as the Swan Creek Group. 
According to the BAR's Summary Status of Acknowledgment Cases, 
dated June 17, 1998, the Swan Creek Group is listed as #135 on 
the list. To grant the Swan Creek Group legislative recognition 
would allow it to be recognized before 134 other groups who 
have adhered to the administrative standard and played by the 
rules. Some of these groups have been waiting since 1978 for 
Federal recognition, long before the Swan Creek Group filed its 
letter of intent and long before it found money to hire 
powerful people to walk the halls of Congress for them. To 
allow H.R. 2822 to pass will only encourage other groups to 
seek recognition through Congress and the Resources Committee 
will be deluged with bills.
    We request, too, that Congress give deference to the 
Governor of Michigan who has stated that he is strongly opposed 
to H.R. 2822 because it circumvents the administrative process 
for obtaining recognition as an Indian tribe.

Gaming Interests Fuel H.R. 2822

    The motivation behind H.R. 2822 is gaming. The organizers 
of the Swan Creek Group have reportedly informed people of 
their plans to build a casino on an old racetrack at Hazelpark 
in Oakland County, Michigan. It is understood, too, that the 
group is financially backed by successful businesspersons from 
the Detroit area. This is the simple answer to why the Swan 
Creek Group is working so hard to push H.R. 2822 through and 
how they can afford the costly resources for the effort.
    In response to the question, ``What is it you want,'' posed 
by a Saginaw Chippewa Tribal Council Member to the Swan Creek 
Group at a recent meeting between the two parties, the Swan 
Creek Group answered, ``We want our own tribe.'' Now, we 
understand that this is because they wish to pursue their plans 
for Hazelpark as expeditiously as possible. They found an 
interested financial backer to buy them as a tribe and 
legislative recognition is the quickest way to their goal. 
Significant, though, is that the suggested gaming site, if 
built, would be located in a Congressional district not 
represented by either of the bill's sponsors.
    Congress should recognize the fundamental problems with the 
tactics of the Swan Creek Group. Allowing a group of 
individuals to be bought and pushed through Congress as a tribe 
to further gaming interests makes a mockery out of tribal 
sovereignty. Congress' only role here should be to direct the 
Swan Creek Group to comply with the administrative process if 
they wish to pursue such endeavors.

The Swan Creek Group Does Not Meet the Criteria for Federal 
Recognition.

    It is the Saginaw Chippewa Tribe's contention that even if 
the Swan Creek Group pursued recognition through the 
administrative process, it could not meet the necessary 
criteria to merit tribal status. As mentioned above, the FAP 
process calls for an in-depth analysis of history, culture, 
ethnology, social and political status of an applicant. It is 
our understanding that the Swan Creek Group, many years ago, 
filed a letter of intent to apply for BIA recognition. Yet, 
since the group has failed to submit the required historical 
documentation to support their claim, the file has remained 
dormant. The Saginaw Chippewa Tribe believes that the Swan 
Creek Group failed to submit additional documentation 
demonstrating that the group meets the FAP criteria because 
such documents do not exist.
    Under the FAP process, a group must have been identified as 
an Indian entity on a substantially continuous basis from 1900 
until the present.\7\ The Swan Creek Group, however, cannot 
meet this criteria. It has not been identified as an autonomous 
Indian entity. Rather, the Swan Creek and Black River Bands 
were considered two constituent parts of the Missisauga 
Chippewa until 1855. After the 1855 Treaty of Detroit, which 
officially joined them with the Saginaw Chippewa Tribe, the 
United States acknowledged the Swan Creek and Black River Bands 
only as part of the Saginaw Chippewa Tribe. The 1864 Treaty, 
the Federal annuity rolls, and the Indian Claims Commission 
decisions confirm this assertion. None of these documents or 
proceedings differentiate the bands; they all treat the Saginaw 
Chippewa Tribe as one tribe.
---------------------------------------------------------------------------
    \7\ 25 C.F.R., Sec. 83.7 (a).
---------------------------------------------------------------------------
    Although the 1864 Treaty mentions the three bands in its 
preamble, the remainder of the treaty makes it clear that the 
treaty is with one Saginaw Chippewa Tribe. Further, the Federal 
annuity rolls which provide counts of Michigan Indians during 
the mid-1800's distinguished between the three bands before the 
1855 Treaty but not after it. Also, in the early 1970's, the 
Indian Claims Commission, in its efforts to resolve claims 
brought by the Saginaw Chippewa Tribe, conducted a detailed 
review of the circumstances surrounding the signing of treaties 
involving the Saginaw, Swan Creek and Black River Bands of 
Chippewas. The Commission, on a consistent basis, identified 
the Swan Creek and Black River Bands only as part of the 
Saginaw Chippewa Tribe.
    Further, the Swan Creek Group does not comprise a distinct 
community from historical times until the present as called for 
in the FAP process.\8\ The Swan Creek and Black River Bands 
have long lived with the Saginaw Chippewa Tribe, so much so 
that individual members cannot tell from which band they 
descend. If there ever was any meaningful distinction among the 
bands, it was fully eroded with the signing of the 1855 Treaty 
of Detroit. Also, the Swan Creek Group has not maintained any 
political authority over its participants as is required in the 
FAP process.\9\ There were no actions taken by an individual 
constituent band of the Saginaw Chippewa Tribe which displays 
any political authority of a particular band after the 1855 
Treaty of Detroit. The authority always was in the governing 
body of the Saginaw Chippewa Tribe. It is the Tribal Council 
that governs the tribe and deals with the Federal Government. 
The Swan Creek Group is nothing more than a splinter group of 
the Saginaw Chippewa Tribe and should not be recognized as its 
own entity.\10\
---------------------------------------------------------------------------
    \8\ 25 C.F.R. Sec. 83.7 (b).
    \9\ 25 C.F.R. Sec. 83.7 (c).
    \10\ 25 C.F.R. Sec. 83.7(f).

---------------------------------------------------------------------------
The Swan Creek Group's Arguments

    One of the Swan Creek Group's main arguments for Federal 
recognition seems to be based upon the interpretation of the 
1855 Treaty of Detroit and the circumstances surrounding the 
reorganization of the Saginaw Chippewa Tribe. Our historical 
analysis, which is attached as a part of this testimony, 
explains in detail how a close look at these two events can 
only conclude that the Federal Government meant to deal with 
one tribe, the Saginaw Chippewa Tribe, consisting of the Swan 
Creek, Black River and Saginaw Bands of Chippewa.
    The 1855 Treaty of Detroit joined the three bands as the 
one Saginaw Chippewa Tribe and the reorganization of the Tribe 
included members regardless of from what band they descended. 
The constitution the Tribe submitted for reorganization reveals 
the intent to reorganize as one tribe when stating, ``We, the 
members of the Saginaw, Swan Creek and Black River Bands of the 
Chippewa Indians of the State of Michigan, in order to 
reestablish our tribal organization . . .''\11\ (emphasis 
added).
---------------------------------------------------------------------------
    \11\ Elmer B. Simonds et al. To Secretary of Interior, received 
December 5, 1934, CCF 9069-A-1936 Tomah 068.
---------------------------------------------------------------------------
    The United States supervised the reorganization process, 
and, at the insistence of the Tribe, included Tribal members 
from all of the scattered Saginaw Chippewa Communities in the 
vote or the referendum for reorganization.\12\ The officials 
did not intend to limit membership in the tribe only to 
descendants of the original Saginaw Chippewa band. They spoke 
of what recognition would offer to the people at Bay City, 
Saganig, Osoda, Peconing, Clare and Mt. Pleasant--where persons 
from the Swan Creek and Black River Bands who did not move to 
the Isabella Reservation migrated to in 1856.\13\
---------------------------------------------------------------------------
    \12\ George Blakeslee to J. V. King May 27, 1985. CCF--Great Lakes 
9592-1936, 066; Eligible Voters of Saginaw, Swan Creek and Black River 
Band of Chippewas. June 17, 1935. CCF--Great Lakes 9592-1936, 066.
    \13\ Ibid.
---------------------------------------------------------------------------
    In 1937, the Saginaw Chippewa Tribe reorganized under the 
statute as an organization of Indians living on one 
reservations.\14\ Although this constitution did not 
automatically include persons living off the reservation, 
including some of the Swan Creek and Black River Band 
descendants, the Tribe's constitution allowed for the adoption 
of the non-residents of the reservation as members of the 
Tribe.\15\ At the recommendations of the BIA, the Saginaw 
Chippewa Tribe enacted an ordinance for the purpose of adopting 
these persons who lived off the reservation. The BIA did not 
decline to reorganize the Swan Creek and Black River Bands. On 
the contrary, they were reorganized as part of the Saginaw 
Chippewa Tribe. Therefore, these bands should not be allowed 
now to obtain recognition as a separate entity.
---------------------------------------------------------------------------
    \14\ Letter from William Zimmerman, Assistant Commissioner of 
Indian Affairs, to Chairman, Constitutional Committee, Saginaw Chippewa 
Indians, July 31, 1936. RG 75 CCF No. 9609-A 1936 Tomah 068 Indian 
Organization--Saginaw.
    \15\ Ibid.

---------------------------------------------------------------------------
Conclusion

    The Saginaw Chippewa Tribe would like to reiterate its 
opposition to the holding of this hearing. The Tribe firmly 
believes that this is a tribal membership issue in which 
Congress should play no role.
    Further, the Saginaw Chippewa Tribe believes that since the 
Swan Creek Group cannot meet the established administrative 
criteria for becoming a tribe, it certainly should not gain 
recognition from Congress based upon five minutes of testimony. 
Federal recognition of a sovereign nation should be granted 
only after careful research and deliberative review. It is too 
significant a measure to be hastily passed in a bill. The 
recognition of new tribes must be left to the established 
administrative process. To provide legislative recognition to 
the Swan Creek Group would be wholly unjust to the other groups 
who followed the FAP process and have patiently waited review. 
H.R. 2822, if passed, will only encourage the introduction of 
more bills for legislative recognition. Congress should direct 
the participants of the Swan Creek Group to resolve their 
issues with their tribe, the Saginaw Chippewa Tribe. In 
summary, H.R. 2822 is merely an attempt by self interested 
businessmen to buy a tribe. It should absolutely not be passed.
    For these reasons, the Saginaw Chippewa Tribe respectfully 
requests that this Committee vote against H.R. 2822. I have 
attached our historical analysis and the relevant documentation 
as part of my testimony. Thank you for the opportunity to speak 
on this issue.
                                ------                                


 Statement of Gerry Son-non-quet Gould, Chief of the Swan Creek Black 
              River Confederated Ojibwa Tribes of Michigan

    Good afternoon, Mr. Chairman, members, and guests. My name 
is Gerry Son-non-quet Gould and I am the Chief of the Swan 
Creek Black River Ojibwa Tribe. I would first like to thank 
Representatives Knollenberg and Barcia for sponsoring H.R. 2822 
and recognizing the issues facing my people. This is an 
historic moment in our Tribe's history. I am honored to address 
you on behalf of our Tribe, many of whom have traveled all 
night by bus in order to witness this historic occasion. We 
come to ask that Congress enact promptly H.R. 2822 to reaffirm 
the trust relationship promised to our ancestors over one 
hundred and ninety years ago.
    When I was a young boy, my mother shared with me, as her 
mother shared with her, and as my great-grandmother shared with 
my grandmother, the rich traditions of our people. My great 
grandmother was born in 1848, and lived in the areas beyond the 
white settlements. The story my mother told me was of a land of 
abundance, and a time of health and simple prosperity in 
Southeast Michigan. My people were trappers, fishermen, hunters 
and farmers. They were communities of grandfathers and 
grandmothers, fathers and mothers, sons and daughters, elders 
and in-

fants. It was a time before the reservations when our people 
lived in harmony with their environment, with nature, and with 
each other. This was our proud heritage before the settlers 
came.
    As my mother explained to me, and her mother to her, the 
non-lndians promised that if we would sign the Treaty of 
Detroit of 1807, they would take only a small portion of our 
lands leaving us the rest upon which to hunt, fish and make our 
living. We signed with the belief or hope that our people and 
the non-natives would dwell together in peace. As white 
settlements grew, we were forced to move, sometimes several 
times.
    We have awaited this moment with great anticipation and 
also with some regret, for there is much to be said, and, yet, 
precious few moments that we have to spend together. This 
afternoon, I would like to describe how, as a result of Federal 
Government action which violated the trust relationship, the 
BIA refuses to acknowledge our tribe. As a result, our people 
are disenfranchised by the very governmental agency which is 
obligated to act in our trust.
    We have signed 15 treaties with the United States, 
including one where we are the sole tribal signatory. Despite 
our extensive treaty relationship with the United States, 
Federal actions and policies have resulted in the effective 
loss of our Federal recognition. First, the U.S. artificially 
combined us with other tribes on the same reservation, solely 
for its administrative convenience, pursuant to the Treaty of 
1855.
    Second, in 1936, the BIA compounded this original error by 
rejecting (1) the Swan Creek Black River Chief's request to 
organize as a separate IRA Tribe; and (2) the draft 
constitution whose preamble listed the Swan Creek Black River 
and the Saginaw Bands as separate tribes. Instead, the BIA 
organized an IRA tribe on the Isabella reservation, decreeing 
that only individuals living on the reservation were eligible 
for membership. At that time, the individuals residing there 
were Odawa, Potawatomi and Ojibwa--mostly Ojibwa of the Saginaw 
Chippewa Band. In contrast, the overwhelming majority of the 
Swan Creek Black River Tribe lived off the reservation.
    To complicate matters, in 1939 the Department of the 
Interior determined to withdraw funding gradually and prohibit 
any future tribal organization under the IRA. By ignoring the 
Swan Creek Black River's separate tribal existence, the U.S. 
breached its trust obligations to our tribal members. 
Notwithstanding the Federal Government's unilateral action--
which was legally and morally wrong--the Swan Creek Black River 
people continued to function as a tribe. Indeed, we remain a 
Tribe since only the Congress can terminate a tribe and it has 
never taken this action.
    This chart depicts how the U.S. artificially grouped tribes 
in Michigan together. In virtually every case, the U.S. has 
untangled these artificial groupings, reaffirming the 
individual sovereignty of each previously combined tribe.
    We appeal to you today to remedy this historic injustice. 
The Swan Creek Black River Tribe has never surrendered or 
relinquished our sovereignty. We have undertaken extensive 
historical, anthropological and genealogical research, all of 
which supports our position. This research proves that we have 
maintained ourselves as a distinct tribe, with distinct kinship 
relationships, distinct annuity rolls, distinct genealogy, 
distinct culture, and a distinct geographic area. In addition 
to the substantial documentation we have submitted for the 
record, we are accompanied by our experts to answer any 
questions you might pose.
    We do not seek to harm any other tribe; we simply seek to 
be treated like the other sovereign Michigan tribes whose 
Federal recognition, in recent years, has been reaffirmed by 
Acts of Congress.
    We sincerely hope that you will support our effort toward 
the restoration of our trust relationship with you. In the 
Civil War, tribal members fought for the Union to emancipate 
other subjugated peoples. The outcome of that great conflict 
brought new meaning to the phrase ``we the people.'' Thus, the 
concept ``we the people'' holds a special meaning for us. At 
this time, ``we the Swan Creek Black River people'' request the 
Congress to restore those same rights possessed by all other 
sovereign Indian nations.
[GRAPHIC] [TIFF OMITTED] T1984.046

       Statement of L. Brooks Patterson, Oakland County Executive

    Dear Chairman Calvert and Distinguished Members of the 
Committee on Resources:
    My name is Brooks Patterson, and I am the elected County 
Executive from Oakland County, Michigan.
    Permit me to set the stage for my brief remarks by telling 
you a little bit about the 910 square miles that makes up 
Oakland. It's a naturally beautiful county with rolling hills 
and 450 lakes. We are the headwaters for five separate rivers 
that wind their way through the county, some ending up in 
neighboring Lake St. Clair, others pouring eventually into the 
Detroit River. By our very name you can imagine the sturdy oak 
trees that crowd the landscape.
    Back in the 17th and 18th centuries Indian tribes, 
specifically the Swan Creek Black River tribe, roamed this 
beautiful territory, fishing its streams and hunting the thick 
forests.
    Much has changed since those early days in Oakland county. 
Nearly 1.2 million residents now enjoy a unique and rich 
quality of life in Oakland County. We have 40,400 businesses 
thriving there, and we are headquarters to many Fortune 500 
companies, not least among them Chrysler Corporation, Kmart and 
Meritor.
    Oakland was beautiful and rugged in the 17th and 18th 
centuries and it combines an urban/rural beauty today. To 
preserve as much of what the Swan Creek Black River tribe 
enjoyed, we have set aside in our County over 87,000 acres of 
park land.
    For purposes of identifying Oakland County: we are also 
home to Senator Spencer Abraham (Auburn Hills), Senator Carl 
Levin (Southfield), Representative Sandy Levin (Royal Oak), and 
Representative Joe Knollenberg (Bloomfield).
    As Oakland County Executive, among my many 
responsibilities, I am broadly charged as the steward of 
Oakland County's vast resources. To that extent, I feel a real 
connection with those stewards similarly charged 200 years ago. 
Out of a deep sense of respect and duty to the ancestors of 
Chief Gerald Gould, I am here to acknowledge the past and 
rectify a two-century old miscarriage.
    My testimony today is small repayment for what the Swan 
Creek Black River Indians lost. What they seek today is 
recognition of a historical fact; Oakland County was their 
aboriginal land, and through the inevitable passage of time and 
events, they have been disenfranchised.
    Their case for recognition is replete with compelling 
evidence of the tribe's existence and territorial claims. Not 
least among the evidence are signed treaties with the very 
Federal Government before which I appear this afternoon. Some 
experts familiar with the Bureau of Indian Affairs and this 
whole recognition process have stated that the Swan Creek Black 
River tribe has presented as compelling a documented case as 
they have ever examined.
    I fear some will oppose the rightful restoration of the 
tribe's identity and heritage this afternoon for one simple, 
albeit, selfish reason: what the tribe might do with its new 
found recognition: they will eventually open a casino? Maybe. 
Will they build clinics and schools? Probably. Will they bask 
in the pride that their heritage has been restored, their 
historical role recognized, and the long nightmare in search of 
their identity and self-esteem is finally over? Absolutely.
    What we are engaged in here this afternoon rises far above 
attempting to influence or manipulate a Congressional committee 
in hopes of protecting one city or one tribe's avaricious 
gaming monopoly. What we are engaged in here is far more noble: 
it truly touches upon dignity, self-esteem, morality and 
justice.
    In conclusion, let me respectfully suggest that the 
question before this Committee is not what the tribe may or may 
not do if they are granted Federal recognition. The question is 
have they proven their case by clear and convincing evidence?
    Thank you.
                                ------                                


      Statement of James M. McClurken, Ph.D., regarding H.R. 2822

Introduction

    Mr. Chairman and Committee members, thank you for allowing 
me to submit testimony on behalf of the Saginaw Chippewa Tribe. 
I will take this opportunity to summarize my larger and more 
detailed historical analysis entitled Historical Identity of 
the Saginaw, Swan Creek, and Black River Chippewas: A Critique 
of House Bill 2822. This text is supported by numerous 
historical citations that I have appended to the document.
    Historical Identity of the Saginaw, Swan Creek, and Black 
River Chippewas: A Critique of House Bill 2822 raises the 
issues that I think are most critical for understanding the 
scope of the Swan Creek Black River Confederated Ojibwa Tribes' 
claims and their implications for the Saginaw Chippewa Tribe. 
Most importantly, H.R. 2822 will legislatively split a 
federally recognized Indian tribe, the Saginaw Chippewa Tribe, 
into two distinct federally recognized entities. The bill 
attacks Saginaw Chippewa Tribe's political sovereignty. The 
bill would also divide the Saginaw Chippewa Tribe's treaty-
based rights and properties between the tribe and a second 
political entity, another infringement on the Saginaw Chippewa 
Tribe.
    The Swan Creek Black River Confederated Ojibwa Tribe 
speakers justify their bid for Federal acknowledgment and the 
division of the Saginaw Chippewa Tribe in Findings One through 
Thirteen of H.R. 2822. I have examined these findings in 
detail. My report shows that all of the findings in H.R. 2822 
are historically misleading or inaccurate. The report provides 
a finding-by-finding analysis and provides references to 
historical works or primary documents that are important for 
correctly interpreting the findings. The sponsors of H.R. 2822 
have given Congress little or no documentary evidence to 
support their claims.

Historical Scope of the Claims and the Treaties Cited in H.R. 
2822

    The scope of the Swan Creek Black River Confederated Ojibwa 
Tribes' over reaching claims is evident from the first line of 
Finding One. The Swan Creek Ojibwas made two large claims 
regarding their sovereignty and properties. The drafters of 
H.R. 2822 claim to be ``the [emphasis added] descendant of, and 
political successor to, the [emphasis added] signatories of . . 
.'' thirteen treaties with the U.S. These treaties cover an 
immense territory in the northern half of the Old Northwest 
Territory. This language strongly implies that H.R. 2822 will 
recognize a Swan Creek Ojibwa claim of sole heirship to the 
sovereign powers and properties of numerous ancestors who 
signed treaties with the United States. Historical facts show 
that that claim this is not true.
    The Swan Creek Black River Confederated Ojibwa Tribes claim 
to be the sole successors to two treaties that no Saginaw, Swan 
Creek or Black River Chippewas attended at all--the 1785 Treaty 
of Fort McIntosh and the 1833 Treaty of Chicago. The historic 
Swan Creek and Black River Chippewas were two of nearly two 
dozen Mississauga Chippewa bands who lived in southeastern 
Michigan. While the historic Swan Creek and Black River bands 
were parties to all of the treaties the Mississauga Chippewas 
made with the United States, they were one small part of the 
larger confederacy and cannot claim to be the sole successors 
to any single treaty except the 1836 Treaty of Washington.\1\ 
In this treaty the Swan Creek and Black River Chippewas sold 
their last remaining reservations to the United States and 
agreed to move to new homes ``west of the Mississippi or 
northeast of St. Anthony Falls.'' While the Swan Creek Black 
River Confederated Ojibwa Tribes now claim that few of their 
people were affected by this treaty and that they remained in 
their traditional homeland, historical analysis shows 
otherwise. Nearly two thirds of their population left Michigan 
for western lands or moved to Canada. After the 1836 treaty, 
the Swan Creek and Black River Band Chippewas who remained in 
Michigan were a small remnant population with few resources or 
means to support themselves.
---------------------------------------------------------------------------
    \1\ Swan Creek and Black River Chippewas made one more with the 
United States in 1859. The Swan Creek and Book River Chippewas who made 
this treaty were those who moved from Michigan to lands west of the 
Mississipi River in the 1830s.
---------------------------------------------------------------------------
    In 1855, the remnant Swan Creek and Black River Chippewas 
once again joined the far more numerous Saginaw Chippewas to 
make a new treaty with the United States. The Swan Creek and 
Black River Chippewas who signed the 1855 Treaty of Detroit did 
not intend to function as a distinct band, an autonomous 
political unit, after the 1855 treaty. Treaty provisions 
stipulated that the remaining Swan Creek and Black River 
Chippewas would join the Saginaw Chippewa bands on two 
reservations. The remnant Swan Creek and Black River Bands 
voluntarily joined with the Saginaw Chippewas. They became part 
of a single political organization and were indistinguishable 
from the Saginaw Chippewas after 1860.
    The merging of the distinct Chippewa bands into a single 
political unit is reflected in Federal annuity payrolls. While 
annuity payrolls before 1855 listed Saginaw, Swan Creek, and 
Black River Chippewas as distinct bands those rolls created 
after 1855 make no such distinction. The failure of United 
States officials to distinguish between the bands was not 
simply a matter of convenience or oversight. The same officials 
created similar rolls for the neighboring Ottawa and Chippewa 
bands and continued to denote band distinctions and regional 
confederacies among those people. The Saginaw, Swan Creek, and 
Black River Chippewas had become one people.
    The Indian Claims Commission agreed with the historical 
fact that the Saginaw Chippewa Tribe was the descendant of and 
political successor to the Saginaw, Swan Creek, and Black River 
Chippewas who made treaties with the United States. Dock-

et 13-H, Finding One, which deals with claims under the 1855 
and 1864 treaties, reads:
        The Saginaw Chippewa Indian Tribe of Michigan, comprising the 
        Saginaw, Swan Creek and Black River Bands of Chippewa Indians . 
        . . maintain this action under provisions of the Indian Claims 
        Commission Act.
    The Claims Commission found that the modern-day Saginaw Chippewa 
Tribe is the exclusive political successor to the formerly distinct 
bands of the Saginaw, Swan Creek, and Black River Chippewas. This 
finding contradicts the findings of H.R. 2822, which attempts to make 
the Swan Creek Ojibwas the sole political successors to this treaty. 
The three historic bands were all successors to these treaties and the 
Saginaw Chippewa Tribe is the modern successor.

1855 Treaty of Detroit

    Another serious flaw in H.R. 2822 is found in Finding Six. The Swan 
Creek Black River Confederated Ojibwa Tribes have claimed that the 1855 
treaty grouped the Saginaw, Swan Creek and Black River Chippewas as a 
matter of administrative convenience and that the ``dissolution'' 
language of that treaty anticipated a time when the fictitious coupling 
of these bands would end. Finding Six then compares the 1855 treaty 
language to that of the 1855 treaty made with the neighboring Ottawas 
and Chippewas of Michigan. The language and implementation of the two 
treaties are not comparable.
    The ``dissolution'' language of the 1855 Saginaw, Swan Creek, and 
Black River treaty was drawn directly from the treaty that the Ottawas 
and Chippewas negotiated with the United States only days before the 
Saginaw Chippewas made their treaty. The history of the Ottawas and 
Chippewas and the Saginaw, Swan Creek, and Black River Chippewas is not 
comparable. Court decisions and subsequent legislation regarding the 
Ottawas and Chippewas are specific to these tribes and cannot apply to 
the Saginaw, Swan Creek and Black River Chippewas.
    The history of the ``dissolution'' clause in the 1855 Ottawa and 
Chippewa Treaty is this, Michigan Indian Agent Henry Schoolcraft in 
1836 administratively combined the Ottawas and Chippewas, two 
historically distinct tribes. They were not administratively joined in 
1855 as H.R. 2822, Finding Six, indicates. Schoolcraft created the 
fictitious Ottawa and Chippewa Nation to compel Ottawa leaders to sell 
their western Michigan lands against their will. The Ottawas resented 
this tactic that robbed them of their property and weakened their 
political status. When the constituent tribes of the fictitious Ottawa 
and Chippewa Nation came together to make a new treaty in 1855, the 
Ottawas demanded that the U.S. end the fiction of an Ottawa and 
Chippewa Nation. The Ottawas wanted each tribe restored to its rightful 
political autonomy. The U.S. did see some ``administrative 
convenience'' in ``dissolving'' the Ottawa and Chippewa Nation. Doing 
so would allow the U.S. to call future councils with one or the other 
tribe without involving all of the widely scattered bands who comprised 
these tribes. This would save time and expense and help justify the 
dissolution language.
    No historical documentation before, during or immediately after the 
1855 negotiations with the Saginaw, Swan Creek and Black River 
Chippewas, directly comments on the negotiators' reasons for inserting 
dissolution language in their 1855 treaty. Indeed, the historical 
situation that treaty negotiators intended to remedy for the Ottawas 
and Chippewas has no parallel in the relations of the Saginaw, Swan 
Creek, and the Black River Bands. The Saginaw, Swan Creek, and Black 
River Chippewas had never been linked in a fictitious political unit 
like that of the Ottawa and Chippewa Nation. The 1855 treaty 
legislatively joined, not separated, these joint political successors 
to the treaties listed in H.R. 2822, Finding One, as a single political 
unit for the first time.
    The ``dissolution'' language argument is also discredited by the 
fact that the Saginaw, Swan Creek, and Black River Chippewas negotiated 
their final treaty with the United States in 1864 as a single tribe. 
The dissolution clause of the Saginaw Chippewas' 1855 treaty was not 
mentioned before, during or after the 1864 negotiation. The first 
discussion of the dissolution of the Saginaw, Swan Creek, and Black 
River Chippewas does not appear in Federal records until 1870. That 
year, Michigan Indian Agent James Long questioned the meaning of the 
language for the first time. How could a ``dissolved'' tribe make a 
legally binding treaty with the United States? Commissioner of Indian 
Affairs Eli Parker affirmed the validity of the 1864 treaty and the 
right of the confederated Saginaw Swan Creek and Black River Chippewas 
to make it.
    Implementation of the 1855 and 1864 treaties facilitated the 
physical and demographic commingling of the once distinct Saginaw, Swan 
Creek, and Black River Bands. In 1855 Swan Creek and Black River bands 
numbered, at most, 150 people, while more than 1,500 Saginaw Chippewas 
lived in Michigan. These 150 lived at one mission station, Nippising 
Mission, in 1855. Methodist Church records show that when the Nippising 
Mission closed in 1856, the Swan Creek and Black River Bands' members 
who lived there divided and moved to several new locations. Some 
relocated to the Isabella Reserve, others to Saganing, some to Oscoda, 
and others to Pinconning, all places where the Methodists operated 
missions. It is highly unlikely that these widely scattered handfuls of 
families maintained political relationships distinct from those of the 
communities where they lived 1855.

The Indian Reorganization Act

    The Swan Creek Black River Confederated Ojibwa Tribes have claimed 
that they attempted to reorganize their separate government under 
provisions of the Wheeler-Howard or Indian Reorganization Act in the 
1930s. They have described two letters proving this point without 
offering citations for these documents. I have examined hundreds of 
documents generated by United States officials and by Saginaw Chippewa 
Tribe members about this issue. I have never seen the letters that the 
Swan Creek Black River Confederated Ojibwa Tribes have called attention 
to. I have not seen any evidence that they attempted to reorganize an 
independent tribe or that the United States ever sanctioned Swan Creek 
reorganization efforts. To the contrary, documents cited in my larger 
report and the supporting documentation show that United States 
officials intended to reorganize all of the scattered Saginaw Chippewa 
communities as the reorganized Saginaw Chippewa Tribe. They did so at 
the insistence of the leaders of the Saginaw Chippewa Tribe who were 
drawn from many of these off-reservation communities. The constitution 
of the Saginaw Chippewa Tribe included provisions that extended 
membership to all of the Saginaw Chippewa communities

Conclusion

    The conclusions and findings in this testimony and in my written 
report are based on twenty years of extensive study of Michigan Indian 
history. I have never discovered any documents that would support the 
Swan Creek Black River Confederated Ojibwa Tribes' claim to have 
maintained a distinct identity from that of the Saginaw Chippewa Tribe 
after the closing of the Nippising Mission in the mid-1850s. No 
document that I have ever read clearly and legitimately raises the 
claim. I strongly urge this Committee to judge the claims of H.R. 2822 
on their historical merit. The claims are spurious and do not merit 
legislation by the United States House of Representatives.
                                 ______
                                 
               Statement of Deborah Davis Jackson, Ph.D.
Introduction

    This statement is in strong support of H.R. 2822 to reaffirm the 
tribal sovereignty of the Swan Creek Black River Confederated Ojibwa 
Tribes of Michigan. I hold a Ph.D. in Anthropology from the University 
of Michigan; I am presently continuing my anthropological research 
under a multidisciplinary postdoctoral fellowship at the University of 
Michigan. Over the past seven years, I have carried out extensive 
historical and ethnographic research on the American Indian peoples of 
the Great Lakes region, with particular focus on the Ojibwa Tribes of 
Southeast Michigan. This work has brought me into collaboration with 
several Native American groups, including the Swan Creek Black River 
Confederated Ojibwa Tribes of Michigan, with whom I conducted an oral 
history project documenting the social, cultural and political 
continuity of tribal settlements throughout the twentieth century. This 
study, funded by the Kellogg Foundation, resulted in a collection of 
transcripts and audio tapes of individual and focus group interviews 
with three generations of several extended Swan Creek Black River 
families, as well as a report summarizing the findings. These 
materials, in addition to serving as the beginnings of a more complete 
oral history for the Tribe, have also been deposited by the Tribe in 
several Michigan libraries so that Native community leaders, scholars 
specializing in American Indians of Michigan, and other interested 
members of the public might benefit from this valuable resource.
    The picture of community life that emerges from the inter-
generational oral history project, in conjunction with my general 
knowledge of Michigan Indian culture and history, has convinced me that 
the Swan Creek Black River people have maintained their tribal identity 
and cohesion from the time of earliest sustained contact with non-
Natives up until the present. Since they were first described in the 
official documents of non-Natives during the early years of the treaty 
era over 200 years ago, Swan Creek Black River communities have 
retained their distinctive identity in contrast both to nearby non-
Native towns and cities (and the dominant society more generally), and 
to the Saginaw Chippewa Tribe with whom they were combined, for 
administrative convenience, by the Federal Government in the Treaty of 
1855. Despite constant challenges to their unique way of life, and even 
at times to their very survival, the Swan Creek Black River Tribe has 
persevered. They seek now to be reaffirmed as the Swan Creek Black 
River Confederated Ojibwa Tribes of Michigan, thereby acknowledging, 
for the Federal Government's purposes, the cultural, social and 
political cohesion they have maintained for so long, against such 
formidable odds. They have entered into treaties with the Federal 
Government repeatedly, and have been ``acknowledged'' in the form of 
their being a separately-named component of the combined ``Chippewas of 
Saginaw, Swan Creek and Black River'' (as stated in the title and 
preamble of their final treaty with the U.S. Government, made on 
October 18, 1864). In my considered opinion, there is no doubt that the 
Swan Creek Black River Confederated Ojibwa Tribes of Michigan does 
constitute a tribal political entity, and has since its first sustained 
contact with non-Natives. I strongly urge favorable action on H.R. 2822 
to reaffirm the Tribe's Federal recognition as a sovereign tribal 
entity.

Community Life: Early 1800s through Early 1900s

    The very early history of the Swan Creek Black River people is 
beyond the scope of this statement. Here I will simply say that as 
Great Lakes area Indian bands came to be designated by their ancestral 
territories, the terms ``Swan Creek'' and ``Black River'' came into 
usage to refer to the Ojibwa (another term for ``Chippewa'') people of 
Southeast Michigan. These were one people, with a common hunting and 
fishing territory, whose multiple primary villages were originally 
clustered along Swan Creek and the Black River. By the early nineteenth 
century, however, land cessions (primarily as a result of the Treaty of 
Detroit in 1807) and settlement by non-Natives had pushed many Swan 
Creek Black River people out of their traditional homelands. At first 
several small reservations were established expressly for Swan Creek 
Black River people, but these were later extinguished (in the Treaty of 
1836), leaving Swan Creek Black River people essentially landless. One 
small group went to Kansas when land was set aside there specifically 
for Swan Creek Black River people (many subsequently returned), some 
stayed in and around the original small reservations, others moved into 
adjacent areas of Canada (e.g., Sarnia, Walpole Island), and still 
others established settlements in various locations around Southeast 
Michigan. Later, during the 10 years between 1855 and 1865, a series of 
treaties resulted in land being set aside at Mount Pleasant (later 
named the ``Isabella'' reservation) specifically for Swan Creek Black 
River, as well as the Saginaw, bands of Ojibwa. A fair number of Swan 
Creek Black River families relocated there; but of those, many 
eventually returned to their home settlements to the southeast.
    The nineteenth century as a whole, then, is characterized by 
disruptions, dislocations, dispersions, and migrations; at the same 
time, however, a strong social and political cohesion kept Swan Creek 
Black River people for the most part in their own communities. These 
small communities--settlements scattered throughout Southeast 
Michigan--retained a strong sense of their identity as a single, 
distinct group of Ojibwa, not only within communities, but among 
communities, as well. The nature of these bonds among tribal members, 
and the way of life they shared, has been especially well illuminated 
by the recollections of older Swan Creek Black River tribal members as 
recorded for the Tribe's oral history project. While these tribal 
members are recalling the early twentieth century, other sources 
(archaeological digs; archival records; written accounts by government 
agents, missionaries and other non-Natives; and long-deceased tribal 
members' correspondence, photographs, and other documents) corroborate 
that the same general conditions held throughout the nineteenth 
century. The social, cultural and political life that sustained Swan 
Creek Black River people throughout the nineteenth century and into the 
first few decades of the twentieth are summarized below.
    As the nineteenth century progressed, the Swan Creek Black River 
Ojibwa people of Southeast Michigan found their options drastically 
restricted by the actions of the Federal Government (confining them to 
reservations, then extinguishing those reservations, then physically 
lumping them together with the Saginaw Chippewas on a reservation far 
from their homeland), the encroachment of non-Native settlers, and the 
destruction of the habitats from which they had traditionally made 
their living. Still, these people managed to maintain their traditional 
life ways and social/political organization in the face of all the 
pressures and changes, preserving their identity as a distinct Ojibwa 
people while at the same time making the adjustments necessary to 
contend with changing circumstances.
    Though their settlements remained geographically dispersed 
throughout Southeast Michigan, Swan Creek Black River people kept in 
close touch with one another. The distances between settlements were 
not any greater than those between the villages and campgrounds of 
aboriginal times, and the marriages that regularly occurred between 
Swan Creek Black River families of different settlements (documented in 
census records and genealogies) served to keep the scattered 
communities bound together in an intricate network of kinship ties.
    While some Swan Creek Black River families in some of the 
settlements turned to farming, most, especially during the second half 
of the nineteenth century, did not have enough suitable land to do so. 
Far more common was a traditional subsistence mix of hunting, fishing 
and trapping, small-scale gardening, the making of black-ash baskets 
and other traditional craft items for sale to non-Natives, migrant farm 
work (such as traveling to northwest Lower Michigan in the summer for 
cherry picking), and other forms of wage-work for non-Native farmers, 
lumbering concerns, and local businesses and homes (where Native women 
sometimes worked as ``domestics''). Another form of work, usually 
provided by women during this period, was to provide midwifery and 
other such medical services to non-Natives in nearby towns, using 
traditional Ojibwa practices and remedies. (While charging fees to non-
Natives, these traditional healers treated their own tribal community 
members on the basis of the reciprocity, not fees, that characterized 
all social interactions among Swan Creek Black River people.)
    These various activities allowed Swan Creek Black River families to 
``get by,'' but there were many difficult times. People often went 
without basic necessities, and some times went hungry during winters 
when game animals--even such small game as rabbits and muskrats--were 
scarce, and wage work was scarcer. Anti-Indian prejudice on the part of 
local white authorities resulted in zealous enforcement of hunting and 
fishing restrictions (this was long before the time when Native rights 
to hunting and fishing in ceded territories was re-established in 
Michigan) and even in false accusations of ``poaching,'' with no regard 
to the fact that Native families needed the animals they hunted and 
trapped simply to stay alive. Similarly, the only employment 
opportunities open to Swan Creek Black River people were low-paying 
farm work and other labor jobs, and Indians were often paid even less 
than non-Natives for equal work. Yet, there was little if any recourse, 
legal or otherwise, and families simply pooled their resources and 
survived as best they could.
    Despite these economic hardships, Swan Creek Black River people in 
the scattered settlements of Southeast Michigan maintained a good 
quality of life socialed with one another, helped each other out in 
times of need, attended church together (many of the settlements had 
Methodist churches which became key community institutions, to the 
point that they were considered ``Indian churches'' by their members), 
communally maintained their local ``Indian cemeteries,'' traveled to 
other Swan Creek Black River settlements for weddings, funerals, and 
other such occasions, and held periodic large scale gatherings 
patterned after aboriginal ceremonial meetings held throughout the 
warmer months of the year. In former times, these kinds of gatherings 
had revolved around maple sugar camps in the spring, fishing villages 
in the summer, and during the fall, the ``feasts for the dead'' that 
were held by various families, bringing visitors from near and far. 
Thus, people who had been separated in smaller hunting camps during the 
winter had ample opportunity during the warmer months to reconnect, 
conduct their business, carry out courtships, get married, and enact 
ceremonial rituals. As the nineteenth century progressed, larger-scale 
gatherings were more likely to revolve around wage work (lumber camps, 
cherry-picking camps), tourist areas where baskets and other native 
crafts could be sold, and religious (Methodist) ``camp meetings.'' But 
the underlying purpose was still the same--for families in far-flung 
settlements to keep in touch with one another and keep their social and 
political ties strong--and the flavor remained very much ``Indian'' 
even as such European institutions as wage labor and Christianity came 
to influence the structure and timing of the gatherings.
    In addition to the social cohesion and cultural continuity that was 
maintained and strengthened at these larger gatherings, political 
leadership was also exercised. Leadership was, for the most part, loose 
and informal, as was the case in earlier times before sustained contact 
with non-Natives. Throughout the nineteenth century and into the 
twentieth century, some degree of political cohesion was achieved 
within the larger Swan Creek Black River polity by a number of 
individuals who, on behalf of their communities: (1) kept people 
informed of issues affecting their people; (2) represented their people 
in interactions with government officials and other outsiders (e.g., 
those who participated in negotiations with the government, signed 
treaties, and sent letters to government officials seeking redress of 
unacceptable circumstances); and, (3) kept their people informed of 
decisions. The large social gatherings discussed above provided good 
opportunities for political discussions to occur. In addition, there 
was constant communication among Swan Creek Black River people on a 
smaller scale, both within and between settlements, as people visiting 
one another invariably discussed the latest news with regard to 
government Indian policy, the local political climate, and news from 
Mt. Pleasant. Furthermore, as literacy increased among Swan Creek Black 
River people (mainly due to ``Indian schools,'' both in the form of 
local day schools and the residential boarding schools at various 
locations), people began supplementing their face-to-face contacts 
through regular correspondences, building and strengthening both social 
and political alliances and keeping up with news of all kinds on topics 
of interest to local Swan Creek Black River communities.
    Life remained surprisingly stable in Swan Creek Black River 
settlements throughout the first few decades of the twentieth century. 
Though families continued to struggle economically, communities drew on 
the strengths of their traditional cultural and social bonds, and 
leaders continued to try to improve the conditions of their people. 
With regard to this last point, it is of special significance that 
specific leaders emerged during the early twentieth century, thus 
bringing to an end a time during which political leadership must be 
inferred. That is, during the first two-thirds of the nineteenth 
century, historical documents such as treaties, the correspondence of 
Indian agents, and the records of missionaries in the area name certain 
individuals as ``chiefs'' of their local communities and as men who had 
influence over Swan Creek Black River people more generally. But during 
the last few decades of the nineteenth century, such documentation is 
rare. However, we can reasonably assume that such leadership continued, 
because as archival evidence becomes available again in the early 
twentieth century, supplemented now by oral historical accounts, it is 
clear that certain individuals were respected leaders not only within 
their local settlements, but among the larger Swan Creek Black River 
community as well. Such Swan Creek Black River men as George Wheaton, 
``Doc'' Chatfield, Art Henry, and an unnamed individual at Peonegowink 
(referred to in a 1909 document) are among those mentioned as 
``chiefs'' who were responsible for keeping their people informed of 
matters that were of concern to them (both in terms of Federal Indian 
policy and developments at Mt. Pleasant), and whose opinions people 
respected when it came to making decisions to improve their 
circumstances.
    With regard to this last issue, it is of particular significance 
that during the Reorganization Era of the 1930s, the Swan Creek Black 
River people sought to have their status as a separate Tribe, distinct 
from the Saginaw Chippewas, reaffirmed through the provisions on the 
Reorganization Act. Elliot Collins, designated as ``Chief of the Swan 
Creek Black River'' in official documents, wrote a letter informing 
Federal Government officials that his people were ``anxious to 
organize'' under the Act to become recognized as a Tribe. 
Unfortunately, no correspondence has been located that indicates what 
became of Chief Collins's inquiry; furthermore, correspondence between 
the Tribe at Mount Pleasant and the office of the Commissioner of 
Indian Affairs shows that while the Tribe was willing to be designated 
``the members of the Saginaw, Swan Creek and Black River Bands of 
Chippewa Indians of the State of Michigan,'' the Commissioner's office 
insisted on the wording ``Indians residing on the Isabella Reservation 
of the State of Michigan.'' Thus, the constitution that was approved in 
1936, while retaining the official name ``Saginaw, Swan Creek and Black 
River Bands,'' in fact excluded off-reservation Swan Creek Black River 
tribal members--that is to say, the majority of Swan Creek Black River 
people and their traditional settlement communities. This simply 
perpetuated the fiction that the Swan Creek Black River people were 
truly a part of the Tribe at Mount Pleasant, while at the same time 
they were denied significant participation in the political and 
economic life of the Tribe.

Mid-Twentieth Century: Urban Migrations

    As mid-century approached, changes occurred that led to the 
dispersal of some of the long-standing Swan Creek Black River 
settlements. On the one hand, resources that the Ojibwa people had 
relied on for traditional subsistence became even more scarce, and in 
some cases, communities that had managed to buy up land in their 
settlements began losing it again to tax fraud, loan sharking, and 
other such schemes on the part of local non-Natives. At the same time, 
factories sprang up in Southeast Michigan cities such as Bay City, 
Saginaw, Flint and Detroit as the auto industry gained momentum, and 
jobs became available to Native Americans and others with little 
education and few conventional job skills. Some Swan Creek Black River 
people found ways to remain living in their traditional settlements 
while commuting to factory jobs in nearby towns and cities. Others 
found it necessary to move to cities for work. As urban migrations 
peaked at mid-century, Swan Creek Black River Ojibwa and other Native 
Americans joined together to form urban Indian organizations as a means 
of maintaining their social and cultural life in the city and 
facilitating political action.
    These urban associations--most of which had many Swan Creek Black 
River people among their membership as well as in key leadership 
positions--provided much needed social services to indigent urban 
Indians. They also reinvigorated the social and cultural life of the 
Native community by offering culture and language classes, sponsoring 
informal potluck suppers throughout the year, and organizing annual 
harvest dinners, Christmas parties, and summer powwows. These programs 
and events drew Swan Creek Black River people from outlying rural and 
small-town areas, as well as serving the needs of those who had moved 
to the cities, and thus provided new settings in which widely-dispersed 
tribal members could congregate. At the same time, opportunities began 
emerging at that state level for American Indian people to organize and 
receive much-needed services. Swan Creek Black River leaders utilized 
these avenues, as well, in their on-going efforts to represent the 
interests and meet the needs of their people.

Relations with the Saginaw Chippewa Tribe: Recent History

    Since the Swan Creek Black River people had been unsuccessful in 
their attempt to gain Federal recognition during the Reorganization Era 
of the 1930s, as a practical matter, to help the Swan Creek Black River 
people, several tribal members chose to work through thee tribal 
government at Mt. Pleasant when dealing with the Federal Government. 
Some of the Swan Creek Black River families who had originally 
relocated to the reservation at Mt. Pleasant during the 1860s had 
remained there. These families lived for the most part in a particular 
region of the reservation and maintained an identity separate from the 
Saginaw Chippewa Band. Off-reservation Swan Creek Black River people 
possessed these social and familial ties to the reservation community. 
However, it has always been on-reservation Saginaw Chippewa people who 
controlled the Saginaw Chippewa tribal government. Given the scarce 
resources of those times, the needs of Swan Creek Black River people 
who lived off the reservation--either in traditional Swan Creek Black 
River settlements, or in urban areas--usually went unaddressed and 
unmet.
    In the context of these circumstances, a number of Swan Creek Black 
River leaders arose during the sixties, seventies and eighties who 
sought to work within the structure of the tribal government at Mt. 
Pleasant--the only venue open to the Swan Creek Black River Tribe at 
that time--to improve the lot of their people. One of the most 
prominent was George Cook, also known as Chief Whitebird, a direct 
descendant of one of the nineteenth-century treaty signatories for the 
Swan Creek Black River Tribe. Throughout the sixties and seventies, 
Chief Whitebird worked tirelessly to encourage his people to register 
as tribal members (of the combined Saginaw, Swan Creek and Black River 
Tribe--the only recognized tribal entity that existed at the time) 
specifically so that they would be eligible for land-claims money that 
would soon become available. He established and maintained contacts in 
each of the scattered settlements, as well as with Swan Creek Black 
River people in urban centers, so as to disseminate information 
effectively and keep himself up to date on the wishes of the people. 
Community leader Juanita Spencer, mother of Robert Spencer (sub-chief 
of the Swan Creek Black River Tribe) was a key organizer for Chief 
Whitebird in the Caro area and beyond. Other men and women took the 
lead in other locales, all keeping Chief Whitebird informed of the 
sentiments and opinions in their communities. In turn, they were being 
apprised by Chief Whitebird of developments in Mt. Pleasant and in 
Washington. It was largely due to this leader's efforts that many Swan 
Creek Black River people who had become disenchanted with the tribal 
government at Mt. Pleasant did end up signing on as members, not with 
the intent of changing their tribal affiliation from Swan Creek Black 
River Ojibwa to Saginaw Chippewa, but rather as the only means open to 
them of receiving their rightful share of land-claims money and other 
benefits.
    Another political leader who attempted to help his people through 
the Saginaw Chippewa tribal structure at Mt. Pleasant was Gerry Son-
Non-Quet Gould, also the direct descendant of a nineteenth-century Swan 
Creek Black River signatory chief. Chief Gould served as At-Large 
Representative on the tribal council at Mt. Pleasant throughout the 
latter half of the 1980s. Though he tried to serve his people as best 
he could through this position, the obstacles were great and he 
eventually concluded that this was not a realistic means through which 
he might meet the needs of the Swan Creek Black River tribal members, 
including many who never became eligible to join the Saginaw Tribe. In 
traveling around to meet with people in various locations throughout 
the region, Chief Gould learned first hand of the widespread 
dissatisfaction and frustration felt by Swan Creek Black River people 
who wanted to maintain their separate tribal identity and make their 
own decisions--decisions that would reflect their own unique 
background, experience and perspective developed over their long 
history of maintaining social, cultural and political institutions 
separate from both non-Native society and the Saginaw Chippewa Tribe.

The Swan Creek Black River Confederated Ojibwa Tribes of Michigan

    It was for these reasons that Chief Son-Non-Quet, together with 
other Swan Creek Black River leaders, incorporated the Swan Creek Black 
River Confederated Ojibwa Tribes of Michigan in the State of Michigan 
on December 26, 1991. They become recognized by the State of Michigan 
as a tribe in February of 1992. The Swan Creek Black River Tribe held, 
and continues to hold, regular monthly meetings and to sponsor events 
to benefit Swan Creek Black River and other off-reservation Indian 
people throughout Southeast Michigan. They have carefully researched 
and documented their tribal history through both archival and oral 
historical means, and have established specific genealogies for tribal 
members that show lines of descent all the way back to original treaty-
signers in the nineteenth century. The Tribe provides a venue within 
which the Swan Creek Black River people of the scattered traditional 
settlements and urban Indian communities around Southeast Michigan can 
maintain their social cohesion, revitalize their cultural traditions, 
and address the political issues unique to the Tribe.
    The history of Swan Creek Black River people is rife with 
dislocation, dispossession, forced migration, discrimination, and 
oppression. Yet, it also reveals strong communities that united around 
a common culture and shared institutions, maintained a group identity 
distinct from the surrounding non-Native society, and formed larger 
networks with other Swan Creek Black River communities through bonds of 
marriage, ceremonial gatherings, and over-arching political leadership. 
Swan Creek Black River people, throughout their long history in 
Michigan, have been referred to by name in numerous documents by many 
different non-Native outsiders (such as government officials, military 
personnel, missionaries, and local politicians), and have been 
recognized as Indians by surrounding non-Native communities.
    The Federal Government attempted to right its past wrongs against 
the Swan Creek Black River people in the mid-1800s by giving them land 
at Mt. Pleasant, and again in the 1930s by creating an combined 
Saginaw, Swan Creek and Black River Tribe. Ironically, however, these 
moves excluded most Swan Creek Black River tribal members, thereby, in 
fact, perpetuating the injustice to a people who have simply wanted to 
remain in their homelands and be recognized as what they are: a 
separate and distinct Ojibwa people with a unique identity and history. 
It is my strongest recommendation and hope that H.R. 2822 will be 
enacted promptly to reaffirm this Tribe's Federal recognition. By that 
act, the present-day Federal Government would reverse the wrongs of the 
past, and allow the people of the Swan Creek Black River Confederated 
Ojibwa Tribes of Michigan to take charge of their own destiny, as a 
fully sovereign people again.
                                 ______
                                 
Statement of Hon. Patrick J. Kennedy, a Representative in Congress from 
                       the State of Rhode Island
    Mr. Chairman, on November 5, 1997, my friend and colleague, Mr. 
Knollenberg, introduced H.R. 2822, a bill that would recognize a group 
of individuals self-named the Swan Creek Black River Confederated 
Ojibwe as a distinct recognized Indian tribe. I have reviewed the bill 
in detail and have concluded that it reduces to two concepts: 
sovereignty and process. It is this bill's affect on these two concepts 
that convinces me that I must oppose this legislation. I encourage my 
fellow Representatives to oppose it as well.
    Congress has been discussing sovereignty in relation to Indian 
tribes since the first instance a European settler set foot on this 
continent. It is time we learned to respect tribal sovereignty and 
uphold it to its fullest extent. The Saginaw Chippewa Indian Tribe of 
Michigan is a sovereign nation. It has exercised and retained its 
sovereignty throughout history and throughout its many encounters with 
the Federal Government. The Saginaw Chippewa Tribe's sovereignty is not 
something that Congress granted to it. Rather, it is something the 
Tribe has retained. The Saginaw Chippewa Tribe is a nation unto 
itself--with the sovereign authority, power, and right to manage its 
own affairs and govern its own members. Congress must respect this and 
must not become involved in internal tribal political affairs--which 
H.R. 2822 asks us to do.
    H.R. 2822 proposes to federally recognize a group that calls itself 
the Swan Creek Black River Confederated Ojibwe Tribes. This group 
claims to be the successor in interest to the Swan Creek and Black 
River Bands of Chippewa Indians. It is my understanding that although 
these bands were once considered parts of the larger Chippewa group in 
southeastern Michigan before and during the treaty process, that these 
bands, by virtue of the 1855 Treaty of Detroit, were affirmatively 
merged with the Saginaw Band to become the one sovereign nation of the 
Saginaw Chip-

pewa Tribe. For over 140 years the Saginaw Chippewa Tribe has 
functioned as one tribe without regard to any band distinctions and has 
been treated as such by the Federal Government.
    Further, I also understand that most of the participants of the 
Swan Creek Group pushing the bill, including its organizer, are 
currently members of the Saginaw Chippewa Tribe and that most tribal 
members, because of more than a century of intermarriage among the 
three component bands of the Tribe, find it difficult to determine from 
which band they descend. Of course, the Saginaw Chippewa Tribe has and 
continues to serve all of these members equally regardless of their 
band affiliation.
    In reviewing the history and the circumstances surrounding this 
bill, I can only conclude that H.R. 2822 addresses nothing more than a 
tribal membership issue of the Saginaw Chippewa Tribe, and that 
Congress should not interfere in this matter. It is an issue for the 
sovereign Saginaw Chippewa Tribe and its governing body. Congress must 
respect this.
    If Congress were to do otherwise and pass H.R. 2822, its effect 
would be to mandate that a splinter group of a well established and 
long recognized tribe break off and form its own nation, complete with 
the rights and privileges of all legitimate Indian tribes. It would 
allow the Swan Creek Group to claim the treaty-preserved rights, 
jurisdiction and sovereignty currently held by the Saginaw Chippewa 
Tribe. This is an affront to the Saginaw Chippewa Tribe's sovereignty--
and to the sovereignty of all Indian nations. If Congress were to split 
the Saginaw Chippewa Tribe with H.R. 2822, nothing will stop it from 
unilaterally splitting other federally recognized tribes when splinter 
groups come forward. This cannot be the precedent Congress sets--
especially when, as in this case, gaming and the establishment of a 
casino are the motivating factors for recognition. H.R. 2822 would set 
this dangerous precedent--and I cannot allow that to happen.
    Process. The second argument against H.R. 2822 boils down to 
process. Since 1978, the Bureau of Indian Affairs (BIA), through its 
Bureau of Acknowledgement and Research (BAR), has been the appropriate 
forum for determining whether groups merit Federal recognition as 
Indian tribes. The BAR process calls for extensive research and 
analysis. The BAR staff has the expertise and the experience to conduct 
such study and review. With all due respect to my fellow 
Representatives, Congress does not. Congress cannot play the role of 
the BIA.
    Of course, I realize that Congress has granted legislative 
recognition to tribes in the past. Yet, the circumstances of those were 
quite different from what we see before us today with the Swan Creek 
Group. The Swan Creek Group has not even attempted the administrative 
process. It is my understanding that they filed a letter of intent with 
the BIA in 1993. This merely opens a file in anticipation of a petition 
for recognition. As of yet, however, the Group has failed to provide 
any documentation or to even pursue this process in any way. The 
Group's file lays dormant in line behind over 100 groups awaiting 
recognition.
    It is my contention that the Swan Creek Group, if it is to pursue 
Federal recognition, should be directed back to the BIA. It would be 
wholly unfair for Congress to allow this Group that has provided no 
documentation whatsoever for recognition to be recognized ahead of all 
the other groups who have abided by the process simply because the Swan 
Creek Group and its representatives have walked the halls of Congress 
pushing legislation.
    Congress is not equipped to decipher the Group's history and 
genealogy to determine whether it merits recognition. This, along with 
the simple fact that many of the Group's participants remain members of 
the Saginaw Chippewa Tribe and receive the benefits and privileges as 
such, convinces me that Congress should not pass this bill. Congress 
must not interfere with the Saginaw Chippewa Tribe's sovereignty. If we 
are to take any action at all on H.R. 2822, it should be to oppose it 
to allow the Saginaw Chippewa Tribe, the appropriate governing body for 
this issue, to resolve the matter. Beyond that, the Group is welcome to 
pursue the established administrative process for recognition. In 
efforts to uphold tribal sovereignty and established process, I cannot 
condone any other action by Congress on this issue.
                                 ______
                                 
                               State of Washington,
                                    Office of the Governor,
                                                   August 20, 1998.
The Honorable Joseph Knollenberg,
11th District,
1511 Longworth House Office Bldg.,
Washington, DC
Dear Congressman Knollenberg:
    It has recently come to my attention that yet another group of 
Native Americans in Michigan is poised to seek federal recognition via 
an act of Congress. This is in addition to the Burt Lake Band of Ottawa 
and Chippewa Indians, which is now seeking recognition through H.R. 948 
and which unsuccessfully sought recognition in the last Congress 
through H.R. 377. I am writing to reiterate my strong opposition to the 
recognition of additional Indian tribes in Michigan via congressional 
action, which I expressed in a December 6, 1995, letter to Congressman 
Donald Young (attached) regarding my opposition to H.R. 377.
    I fully stated the reasons for my opposition to congressional 
acknowledgement of additional Indian tribes in my letter to Congressman 
Young. While some of the facts have changed since I wrote that letter, 
notably with respect to the legality of casino gaming in Michigan, the 
fundamental reasons for my opposition remain the same.
    First, recognizing tribes in this manner circumvents and undermines 
the established process for federal acknowledgment that exists in the 
Department of the Interior's Bureau of Indian Affairs (``BlA''). This 
process requires that tribes make a detailed showing of their 
entitlement to federal recognition that involves extensive examination 
of the historical record of the tribe in question. This is a function 
that congress is simply not equipped to carry out. If, as some claim, 
the BIA process has broken down, I would suggest that congress direct 
in energies toward fixing that process rather than assuming the BIA's 
duties unto itself. It is my understanding that the tribe that recently 
surfaced has taken no action to further its application for 
acknowledgement since filing its original ``letter of intent'' with the 
BIA in 1993. In this case, the federal acknowledgement process has not 
even been permitted to work.
    Second, recognition of Indian tribes by act of congress sets a bad 
precedent that other tribes are likely to follow fact. In fact, 
Michigan is a prime example of this trend. The Michigan tribes that are 
now seeking federal acknowledgement from congress are merely following 
the lead of three tribes that gained acknowledgement in the same manner 
in 1994. The tribes are lobbying congress rather than marshalling the 
historical evidence that the BIA properly demands that tribes seeking 
federal acknowledgement produce. This is a trend that should not be 
allowed to continue.
    Third, recognition of an additional Indian tribe in Michigan will 
serve to undermine state sovereignty and will inevitably lead to 
increased litigation on a variety of fronts where state and tribal 
policies conflict. Finally, acknowledgement of additional tribes could 
lead to a proliferation of casino gaming in Michigan, which I oppose. 
The tribes should, therefore, only be recognized following the 
searching inquiry that the BIA performs, not as a result of the 
political process.
    Thank you for taking my concern into consideration. I urge you to 
oppose efforts to acknowledge additional Indian tribes via 
congressional action.
            Sincerely,
                                               John Engler,
                                                          Governor.
JE/mg/jp
Enclosure
cc: Michigan Delegation

[GRAPHIC] [TIFF OMITTED] T1984.001

[GRAPHIC] [TIFF OMITTED] T1984.002

[GRAPHIC] [TIFF OMITTED] T1984.003

[GRAPHIC] [TIFF OMITTED] T1984.004

[GRAPHIC] [TIFF OMITTED] T1984.005

[GRAPHIC] [TIFF OMITTED] T1984.006

[GRAPHIC] [TIFF OMITTED] T1984.007

[GRAPHIC] [TIFF OMITTED] T1984.008

[GRAPHIC] [TIFF OMITTED] T1984.009

[GRAPHIC] [TIFF OMITTED] T1984.010

[GRAPHIC] [TIFF OMITTED] T1984.011

[GRAPHIC] [TIFF OMITTED] T1984.012

[GRAPHIC] [TIFF OMITTED] T1984.013

[GRAPHIC] [TIFF OMITTED] T1984.014

[GRAPHIC] [TIFF OMITTED] T1984.015

[GRAPHIC] [TIFF OMITTED] T1984.016

[GRAPHIC] [TIFF OMITTED] T1984.017

[GRAPHIC] [TIFF OMITTED] T1984.018

[GRAPHIC] [TIFF OMITTED] T1984.019

[GRAPHIC] [TIFF OMITTED] T1984.020

[GRAPHIC] [TIFF OMITTED] T1984.021

[GRAPHIC] [TIFF OMITTED] T1984.022

[GRAPHIC] [TIFF OMITTED] T1984.023

[GRAPHIC] [TIFF OMITTED] T1984.024

[GRAPHIC] [TIFF OMITTED] T1984.025

[GRAPHIC] [TIFF OMITTED] T1984.026

[GRAPHIC] [TIFF OMITTED] T1984.027

[GRAPHIC] [TIFF OMITTED] T1984.028

[GRAPHIC] [TIFF OMITTED] T1984.029

[GRAPHIC] [TIFF OMITTED] T1984.030

[GRAPHIC] [TIFF OMITTED] T1984.031

[GRAPHIC] [TIFF OMITTED] T1984.032

[GRAPHIC] [TIFF OMITTED] T1984.033

[GRAPHIC] [TIFF OMITTED] T1984.034

[GRAPHIC] [TIFF OMITTED] T1984.035

[GRAPHIC] [TIFF OMITTED] T1984.036

[GRAPHIC] [TIFF OMITTED] T1984.037

[GRAPHIC] [TIFF OMITTED] T1984.038

[GRAPHIC] [TIFF OMITTED] T1984.039

[GRAPHIC] [TIFF OMITTED] T1984.040

[GRAPHIC] [TIFF OMITTED] T1984.041

[GRAPHIC] [TIFF OMITTED] T1984.042

[GRAPHIC] [TIFF OMITTED] T1984.043

[GRAPHIC] [TIFF OMITTED] T1984.044

[GRAPHIC] [TIFF OMITTED] T1984.045


</pre></body></html>
